<html>
<title> - SECURING OUR BORDERS UNDER A TEMPORARY GUEST WORKER PROPOSAL</title>
<body><pre>[Senate Hearing 108-536]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-536

      SECURING OUR BORDERS UNDER A TEMPORARY GUEST WORKER PROPOSAL

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2004

                               __________

                          Serial No. J-108-63

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
94-810                     WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                   SAXBY CHAMBLISS, Georgia, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     PATRICK J. LEAHY, Vermont
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
LARRY E. CRAIG, Idaho                RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
                  Joe Jacquot, Majority Chief Counsel
                  James Flug, Democratic Chief Counsel



                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Chambliss, Hon. Saxby, a U.S. Senator from the State of Georgia..     1
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     2
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     4
    prepared statement...........................................    53
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    57

                               WITNESSES

Bonner, Robert C., Commissioner, U.S. Customs and Border 
  Protection, Department of Homeland Security, Washington, D.C...     5
Bucella, Donna A., Director, Terrorist Screening Center, Federal 
  Bureau of Investigation, Department of Justice, Washington, 
  D.C............................................................     9
Griswold, Daniel, Associate Director for Trade Policy Studies, 
  Cato Institute, Washington, D.C................................    33
Stock, Margaret D., Assistant Professor of Law, U.S. Military 
  Academy, West Point, New York on Behalf of the American 
  Immigration Lawyers Association................................    34
Verdery, C. Stewart, Jr., Assistant Secretary for Border and 
  Transportation Security Policy and Planning, Department of 
  Homeland Security, Washington, D.C.............................     6

                       SUBMISSIONS FOR THE RECORD

Bonner, Robert C., Commissioner, U.S. Customs and Border 
  Protection, Department of Homeland Security, Washington, D.C., 
  prepared statement.............................................    43
Bucella, Donna A., Director, Terrorist Screening Center, Federal 
  Bureau of Investigation, Department of Justice, Washington, 
  D.C., prepared statement.......................................    48
Griswold, Daniel, Associate Director for Trade Policy Studies, 
  Cato Institute, Washington, D.C., prepared statement...........    59
Mexican American Legal Defense and Educational Fund, Vibiana 
  Andrade, Acting President, Washington, D.C., letter............    62
Stock, Margaret D., Assistant Professor of Law, U.S. Military 
  Academy, West Point, New York on Behalf of the American 
  Immigration Lawyers Association, prepared statement and 
  attachment.....................................................    65
Verdery, C. Stewart, Jr., Assistant Secretary for Border and 
  Transportation Security Policy and Planning, Department of 
  Homeland Security, Washington, D.C., prepared statement........    96
Wenski, Thomas G., Coadjutor Bishop of Orlando, Chairman, U.S. 
  Conference of Catholic Bishops, Orlando, Florida, prepared 
  statement......................................................   106

 
      SECURING OUR BORDERS UNDER A TEMPORARY GUEST WORKER PROPOSAL

                              ----------                              


                        THURSDAY, APRIL 1, 2004

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
                   Citizenship, Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Saxby 
Chambliss, Chairman of the Subcommittee, presiding.
    Present: Senators Chambliss, Sessions, Cornyn, Kennedy, 
Feinstein and Durbin.

OPENING STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Chairman Chambliss. This hearing will come to order. 
Senator Kennedy is on his way. We will let him make an opening 
statement when he gets here.
    To everybody, let me say welcome. This is the second in our 
series of guest worker hearings to lay the groundwork for 
reform. President Bush began this process by announcing his 
temporary guest worker principles on January 7 of this year. In 
the President's comments, he said the first priority is that 
America must control its borders, which includes improving 
information-sharing; identifying terrorists, criminals and 
immigration violators; and working with the Canadian and 
Mexican governments to increase border security. This is what 
we are here today to discuss.
    Since 9/11, the administration has taken great strides to 
strengthen our homeland security. The President has created the 
Terrorist Screening Center to improve information-sharing. Over 
1,000 new Border Patrol agents have been added to enhance our 
border security. The entry-exit system, US VISIT, is up and 
running and now collecting information on aliens traveling to 
the United States on a visa.
    Even with our best efforts, illegal immigration is a huge 
problem. Of the 8 to 10 million, or more, illegal aliens in the 
United States, it is estimated that 60 percent entered the 
United States without inspection, which is a criminal offense. 
Such a large number of illegal aliens created a financial drain 
due to non-reimbursed medical and educational services, burdens 
on our judicial system, and allows criminal acts to go 
unchecked.
    Since a temporary guest worker proposal will increase the 
flow of people into and out of the United States on a visa, we 
must be confident in our border security. News articles have 
reported that Al-Qaeda is expanding operations in Latin America 
and the false document trade is increasing there.
    To stop terrorists, I have advocated for a single, 
consolidated watchlist that can be accessed by the various 
agencies in order to connect the dots. I encourage the 
administration's efforts for better intelligence-sharing, but 
we are not there yet.
    Under a guest worker system, stopping criminals at the 
border will remain a mighty challenge. The Department of 
Justice Inspector General recently issued a report calling on 
the Border Patrol and the FBI to improve their information-
sharing efforts in order to access criminal records of people 
caught illegally at the border. This demonstrates how we must 
have the necessary policies and procedures in place to get the 
right information out of the right people.
    If a guest worker system is to provide a legal way for 
workers to enter the United States, illegal entry must be 
deterred. We know the security concerns and adverse economic 
impact that illegal aliens cause. We have also heard too many 
tragic stories of human trafficking and desert crossing. The US 
VISIT entry-exit system is part of the answer, but any legal 
system to come and work in the United States must, in return, 
help to strengthen our border security efforts and effectuate 
disincentives to illegal entry.
    As Congress begins the legislative process toward reform, I 
believe national security, as well as U.S. economic interests, 
should shape our policies. This starts with controlling our 
borders.
    I appreciate our witnesses being here today to cover a 
fairly broad range of critical issues. On this first panel, we 
have Commissioner Robert Bonner, of U.S. Customs and Border 
Protection--Mr. Bonner, we are glad to have you back with us--
Director Donna Bucella, of the Terrorist Screening Center, and 
Assistant Secretary Stewart Verdery, of the Border and 
Transportation Security Directorate at the Department of 
Homeland Security. We look forward to your testimony.
    At this time, I will call on my colleague, Senator 
Feinstein, for any opening statement she might have.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, and I 
must say I agree with your opening statement. I thank you for 
making it. I have served on this Subcommittee now for 12 years, 
even since I have been on the Judiciary Committee, and I agree 
with the concept that security must be of paramount concern.
    There are five different variations of guest worker 
programs before this Committee. I believe we should go slowly. 
I do not believe our borders are in the shape they should be, 
and I say that from the perspective of somebody who also serves 
on the Intelligence Committee.
    I want to just put into the record of this Subcommittee 
that total non-immigrant admissions to the United States, 
according to the Department of Homeland Security, in 2002 were 
27.9 million people. Those are non-immigrant admissions to the 
United States. Of that number, 655,949 were admitted as 
temporary workers and training; in H-1Bs that year, for 
specialty occupations, 370,490; for H-2A, for agricultural 
workers, 15,628; H-2B, for non-ag workers, 86,987; O-1 visas 
for workers with extraordinary ability, 25,008; P-1 for 
internationally-recognized athletes or entertainers, 41,453; 
for TN visas for professional workers under NAFTA, 73,699; and 
for L-1 visas for intra-company transferees, 313,699.
    Again, 27.9 million people come in and out in the non-
immigrant portions of our program, and this doesn't account for 
the thousands of spouses and children who join these guest 
workers.
    So I guess the point I want to make is that we already have 
a huge guest worker program going on in this Nation in a host 
of visa categories. I have real concerns about because 40 to 50 
percent of the newcomers in any program come to my State, 
California. It is a huge problem in terms of being able to have 
the infrastructure that enables you to cope with the new 
population. I think it is 15 to 20 percent of our State prison 
population is illegal immigrants, at a cost of $682 million. So 
this is a huge item, and my view very strongly is let's go slow 
right now. Security should be our main concern.
    Thank you, Mr. Chairman.
    Chairman Chambliss. Thank you, Senator.
    Senator Cornyn.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Thank you, Mr. Chairman, and thank you for 
having this hearing, another hearing, on what I consider to be 
one of the most important subjects that Congress could possibly 
deal with in certainly a post-9/11 environment. But as Senator 
Feinstein has pointed out, we have had serious, longstanding 
problems with our immigration system and the status quo is 
simply not acceptable.
    I think if there is one thing that we can all agree upon, 
it is that our current system is broken. In addition to the 
problems that Senator Feinstein mentioned, we have between 8 
and 10 million people living in this country illegally now, 
about 6 million of them part of our workforce. We don't know 
for sure who they are, we don't know for sure what they are 
doing, and that is simply unacceptable in a post-9/11 world and 
inconsistent with our demands for homeland security.
    I share with my colleagues and my constituents concerns 
about our current failure to enforce our immigration laws. I 
have said many times that I think the failure to enforce the 
law breeds disrespect for the law generally. We are a country 
founded on the rule of law, and the status quo in the area of 
immigration obviously cannot continue.
    I am convinced that a temporary worker program will help us 
enforce our immigration laws by separating those who are in the 
country work from those who are coming here to try to harm us. 
As a former State attorney general charged with the 
responsibility of enforcing Texas law, I know that law 
enforcement is about setting priorities and making the best use 
of limited resources. In my view, a temporary worker program is 
a tool that would allow immigration authorities to focus their 
limited resources on those who are here to harm us--the 
smugglers, the drug dealers and the terrorists.
    I am confident we can, if we put our minds to it and if we 
work long and hard enough--and it will be hard work--devise a 
temporary worker program that includes tough anti-fraud 
measures so we are able to confirm that temporary workers are 
who they say they are. It is crucially important that we 
prevent and deter fraud in any new temporary worker program 
that we devise and I am committed to doing that.
    Additionally, I think US VISIT will be an extremely 
important tool to help authorities monitor entry and exit of 
temporary workers so they can return to their home country when 
their period of work expires.
    Mr. Chairman, while I understand that we are principally 
concerned with enforcement of our laws at this hearing, I think 
we always need to keep in mind that we are bound by 
international treaties with, for example, Mexico and Canada, 
from which this country, I believe, benefits enormously in 
terms of trade and the stimulus to our economy.
    At the same time we deal with border security, we need to 
keep in mind that we need to not impair the free flow of legal 
commerce across our borders. So I hope that we will focus not 
only on security, but also on the proper balance between 
security and our economy.
    With that, thank you very much.
    Chairman Chambliss. Thank you, Senator Cornyn.
    I now turn to the ranking member, who has certainly 
maintained a very cooperative spirit in this process, and we 
have had a good relationship on this issue.
    Senator Kennedy.

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Thank you very much, Mr. Chairman. The 
hour has moved along. I will put my statement in the record.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Senator Kennedy. I want to welcome this panel. I am 
particularly interested in how we are implementing our border 
security legislation that we passed some time ago with strong 
bipartisan support. There were certainly provisions in that 
legislation that we thought were very important in terms of 
ensuring that those agencies that should have information would 
get that information, so that we are going to be able to make 
sure that we give focus and attention to the problem of 
terrorists rather than just the question of immigrants.
    So I will look forward to questioning our witnesses. I 
thank them all very much and I thank you, Mr. Chairman, for 
having this hearing.
    Chairman Chambliss. Thank you.
    We will start with you, Mr. Bonner. I will tell all of you 
we have your written statements, but we look forward to you 
summarizing those statements. We thank you again for being 
here.
    Mr. Bonner.

STATEMENT OF HON. ROBERT C. BONNER, COMMISSIONER, U.S. CUSTOMS 
    AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Bonner. Thank you, Mr. Chairman, Senator Kennedy, 
Senator Cornyn and Senator Feinstein. I am pleased to have this 
opportunity to testify today about our efforts to secure the 
borders of the United States and how the temporary worker 
program that has been proposed by the President earlier this 
year, I believe, will contribute to that effort.
    Mr. Chairman, this is actually the first time I have had 
the honor to appear before this Subcommittee. I have been 
honored by the full Judiciary Committee of being confirmed 
three times to various offices, but this is the first time I 
have had a chance to appear before this Committee as the 
Commissioner of U.S. Customs and Border Protection, and I look 
forward to working closely with you and this Committee.
    Let me just begin my testimony by just a very brief 
statement about U.S. Customs and Border Protection. This is a 
new agency that was created as part of the homeland security 
reorganization and it was just over 1 year ago, on March 1, 
2003, that for the first time in the history of our country our 
Nation established a single agency responsible for managing and 
securing our borders and all of our ports of entry into the 
United States.
    I think this was a very important part of the Department of 
Homeland Security reorganization. This new agency, Customs and 
Border Protection, brings together all of the border inspectors 
from the legacy United States Customs Service, the former INS, 
the agriculture inspectors at our borders, as well as the 
entire U.S. Border Patrol into one new agency, one single 
agency for our borders that is squarely focused upon the 
priority mission of the Department of Homeland Security, and 
that is nothing less than preventing terrorists and terrorist 
weapons from entering our country.
    I believe that our current immigration system is broken and 
I believe that the President's proposal, which I believe is a 
bold and courageous proposal by the President, if enacted, will 
allow us to gain greater control over our borders. This will 
allow the Department of Homeland Security, and more 
particularly Customs and Border Protection, to be much more 
effective in carrying out its mission of preventing terrorists, 
terrorist weapons and other criminals and contraband from 
entering the United States and harming the American people.
    Some simple data points illustrate, I believe, why this is 
true. Last year, the Border Patrol, which is now part of for 
the last year, 13 months, Customs and Border Protection, made 
931,310 apprehensions of aliens illegally entering or 
attempting to enter the United States between our ports of 
entry.
    The vast majority of these apprehensions took place on our 
southwest border with Mexico, and the vast majority of the 
individuals arrested presented no terrorist or criminal threat 
to this country. Most were economic migrants that were coming 
here to work.
    Over the past decade or more, the U.S. Government has 
responded to this phenomenon by significantly strengthening the 
U.S. Border Patrol. Indeed, I can tell this Subcommittee that 
since September 11 of 2001, the Border Patrol has increased its 
staffing by almost 1,500 Border Patrol agents.
    In the years since the Immigration Reform and Control Act 
of 1986, and particularly since the mid-1990's, the Border 
Patrol has literally tripled its staffing. We have also 
significantly increased our technological resources, such as 
sensors, cameras and aircraft, as well as strengthened our 
infrastructure, such as better fencing, lighting, and so forth, 
along some significant segments of the border, including down 
near the San Diego and southern California border with Mexico.
    But I will tell you that the number of apprehensions, 
931,000, should give us all pause. With all of the effort of 
the last decade, and even with the very real success that we 
have had in better controlling major segments of our border, 
including the southwest border, the Border Patrol is still 
dealing with a literal flood of people on a daily basis, again 
most of whom are attempting to enter this country in order to 
work. I am concerned, and I think we all should be concerned 
that terrorists or other criminals will seek to enter the 
United States essentially by hiding in this flood.
    I believe we also need to be concerned about how lucrative 
now the alien smuggling business is. Most of the migrants 
illegally entering our country across the southwest border 
employ alien smuggling organizations. Those alien smuggling 
organizations are primarily used by aliens seeking to illegally 
enter to work in the United States, but they clearly could also 
be used by terrorists seeking to enter our country to do us 
harm.
    If enacted into law, the President's temporary worker 
proposal would, I believe, go along way toward driving a stake 
through the heart of this black-market smuggling enterprise and 
reduce, and I believe potentially substantially reduce the 
flood of illegal migrants that the Border Patrol must sift 
through and apprehend in order to protect our borders against 
terrorist penetration.
    So let me just say I believe the temporary worker proposal 
is perhaps in some ways what we need to create a smarter 
border, which is something that we have been trying to do at 
our ports of entry and elsewhere since 9/11. The temporary 
worker program is a natural extension, certainly, of a smarter 
border philosophy, one in which we identify those who are 
simply coming here for purposes of work, but where we increase 
our prospects, which I believe we must do, to interdict and be 
able to apprehend terrorists or criminals or others that are 
coming into our country to do us harm.
    I appreciate the opportunity to testify, Mr. Chairman, and 
I will be happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Bonner appears as a 
submission for the record.]
    Chairman Chambliss. Thank you.
    Mr. Verdery.

STATEMENT OF HON. C. STEWART VERDERY, JR., ASSISTANT SECRETARY 
  FOR BORDER AND TRANSPORTATION SECURITY POLICY AND PLANNING, 
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Verdery. Chairman Chambliss, Ranking Member Kennedy and 
members of the Subcommittee, it is a privilege to be here today 
on behalf of the Department of Homeland Security to give you 
our perspective on how the temporary worker program will 
enhance border security.
    I won't repeat Commissioner Bonner's remarks, but the 
Border and Transportation Security Directorate, where I run the 
policy office, oversees the activities of customs and border 
protection, as well as our Immigration and Customs Enforcement 
Bureau and the TSA. So we try to bring a macro perspective to 
border and transportation security issues. I know that my boss, 
Under Secretary Hutchinson, was here at your prior hearing to 
testify on these same issues.
    It is especially an honor for me, having been a counsel for 
a Senator Hatch on this Committee several years ago, to return 
today to talk about the administration's working relationship 
with the Congress, and with this Committee in particular, on 
this most important issue.
    The written testimony submitted for this hearing by 
Commissioner Bonner and I, and for the prior hearing by Under 
Secretary Hutchinson and Director Aguirre, describe in great 
detail the principles which the President has espoused as 
crucial elements of a temporary worker program. Let me speak 
briefly to just some of the key points related to border 
security here today.
    As was mentioned, the first principle in the President's 
proposal is protecting the homeland by controlling our borders. 
When you talk about land borders, there are ports of entry in 
the areas between the ports. Commissioner Bonner has discussed 
the Border Patrol, obviously a key component of our border 
security. I would like to discuss in a little bit of detail the 
US VISIT program.
    As US VISIT implements a biometric entry-exit system at our 
land ports of entry over the next 2 years, border security as 
we know it will significantly change. We have never had a 
reliable exit system, and as a result have never known when or 
how many foreign visitors have overstayed the terms of their 
visa or have entered the country illegally. But, soon, we will.
    Through the deployment of advanced technology in travel 
documents and at our ports of entry, we will be developing this 
capability to enforce our immigration and visa laws, and thus 
provide the integrity that Congress and the American people 
should rightly insist be a part of a new worker program.
    US VISIT has proved extremely effective at air and seaports 
in finding the needles, the criminals or those with immigration 
violations, in the haystack of travelers. Not quite 3 months 
old, US VISIT has successfully and efficiently recorded the 
entry of over 2.5 million passengers and the exit of over 8,000 
travelers without causing delays at ports of entry or hindering 
trade.
    The program to date has resulted in 231 watchlist hits, 
including serious criminals, because of the biometric 
collection from non-immigrant visa-holders. Aliens who have 
repeatedly entered the U.S. with aliases or stolen or altered 
travel documents are now being detected solely by the biometric 
component of the system.
    The administration's enhanced information-sharing efforts, 
including those utilized at the Terrorist Screening Center and 
the National Targeting Center, and between our Department and 
the Department of State, are essential to providing the 
inspectors at our ports and in the field with the information 
that they require.
    The capability of US VISIT will provide a key role in 
encouraging potential workers to utilize the President's 
temporary worker program because they will know what the 
system's capabilities are. On one hand, we will know whether 
aliens are complying with the terms of the worker program or 
have otherwise violated our immigration laws as they enter and 
exit through ports of entry.
    On the other hand, these workers will be able to easily 
travel home to see family or friends and generally maintain the 
ties that will make their eventual return home more attractive. 
This eventual return home is the second immigration enforcement 
principle that the President set out in his proposal.
    Participants in the program would be required to return to 
their home country after their period of work has concluded. As 
proposed by the President, the legal status granted by this 
program would last 3 years, and while it would be renewable, it 
would not be permanent. This proposal does not provide an 
automatic path to citizenship. Those who have broken the law 
and remain illegally in our country should not receive an 
unfair advantage over those who have followed the law.
    We do recognize that some temporary workers will want to 
pursue citizenship, and they will be able to apply for green 
card status through the existing process behind those already 
in line. We also look forward to working with Congress on the 
numbers of those green cards.
    The third immigration enforcement principle in the 
President's proposal is workplace enforcement of our 
immigration laws. The fiscal year 2005 budget requests an 
increase of $23 million for this, more than doubling our funds. 
This illustrates the President's commitment to serious 
immigration enforcement and the rule of law as part of our 
temporary worker program.
    Temporary workers will be able to establish identities by 
obtaining legal documents under the program. It is critically 
important, as Senator Cornyn mentioned, to create a system that 
prevents the fraud that was so prevalent under the 1986 Act. It 
is also important that these documents be as compatible as 
possible with the US VISIT system, and we are working on those 
issues.
    I believe that passing a temporary worker program that 
works to benefit the American economy, while bringing integrity 
to our immigration system, is a goal consistent with our 
homeland security responsibilities. I recognize that this 
issue, like many immigration issues, is extremely complicated, 
and that members of Congress have a variety of viewpoints on 
the President's proposal and many proposals of their own.
    However, the complexity of this issue only means that we 
should continue our efforts, working together to build on those 
principles and make the temporary worker program a reality. The 
administration and our department stand ready to make the 
effort necessary to move forward in achieving this important 
goal.
    Thank you.
    [The prepared statement of Mr. Verdery appears as a 
submission for the record.]
    Chairman Chambliss. Thank you very much.
    Ms. Bucella.

 STATEMENT OF DONNA A. BUCELLA, DIRECTOR, TERRORIST SCREENING 
CENTER, FEDERAL BUREAU OF INVESTIGATION, DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Ms. Bucella. Good afternoon, Chairman Chambliss, members of 
the Subcommittee. Thank you for the opportunity to discuss the 
missions and objectives of the new Terrorist Screening Center.
    Homeland Security Presidential Directive 6, issued on 
September 16, 2003, ordered the creation of the Terrorist 
Screening Center, directing its operations to begin on December 
1, and we met that goal. The Terrorist Screening Center was 
created to ensure that Government investigators, screeners, 
Federal agents and State and local law enforcement officers 
have ready access to the information and expertise they need to 
respond quickly when a known or suspected terrorist is 
encountered here in the United States, at our borders or 
overseas.
    Today, I will tell you about our daily operations as they 
relate to the United States Customs and Border Protection's 
National Targeting Center and our role in preventing terrorists 
and suspected terrorists from crossing our borders. I will 
provide as much information as I can in this open forum. 
However, I would be happy to provide additional, classified 
details in a closed setting at your request.
    We are a multi-agency center, including participants from 
the Departments of Justice, Homeland Security, State and 
Treasury. Our goal is to consolidate the Government's approach 
to terrorist screening and provide for the appropriate and 
lawful use of terrorist information in screening processes.
    Being a diverse center, manned by personnel from both law 
enforcement and homeland security entities, we communicate and 
coordinate terrorist screening efforts across the full spectrum 
of Federal, State and local government agencies. Since December 
1, we have been providing key resources for screeners and law 
enforcement personnel.
    These include a single coordination point for terrorist 
screening data; a consolidated 24/7 call center for encounter 
identification assistance; access to a coordinated law 
enforcement response; a full process for tracking encounters; 
providing feedback to the appropriate entities; and a process 
to address misidentification issues.
    There are three fundamental types of inquiries: within the 
United States, at our ports of entry and outside our borders. 
Interior inquiries will normally be made by local law 
enforcement. Border inquiries are made by United States Customs 
and Border Protection, or in some instances Immigration and 
Customs Enforcement agents. Exterior inquiries are conducted by 
the State Department. Today, I am just going to highlight the 
border inquiries.
    We receive a high volume of calls that originate with CBP 
inspectors stationed at our Nation's borders. In a typical 
case, a person attempts to enter into the United States. A CBP 
inspector queries the name electronically through their 
Interagency Border Inspection System, IBIS, and receives a 
response within seconds indicating that that person may be a 
suspected terrorist or an associate of terrorists.
    The CBP inspector contacts the National Targeting Center, 
where the record will be analyzed, then passed over to our 
center. We examine the record to determine whether the 
individual encountered is identical to the person in our 
database. The TSC then appropriately passes any derogatory 
information to the NTC and the CBP makes a determination as to 
whether the individual will be allowed to enter into the United 
States.
    Simultaneously, we contact our operational component at the 
FBI Counterterrorism Watch, CT Watch. CT Watch provides for the 
local joint terrorism task force response, which often includes 
an ICE agent to go to the border. This consolidation between 
TSC, CBP and ICE has already achieved results. One instance 
involves a foreign national traveling to the United States. He 
was inspected by CBP and found to have dangerous substances in 
his luggage. He was arrested and later removed from the United 
States and returned to his country of origin. However, less 
than a month later, that same individual applied for a new 
visa, and because of his previous encounter with my center, CBP 
and ICE, his application was denied.
    Our cooperation with CBP and ICE has also facilitated the 
sharing of information related to ongoing investigations. In 
one case, for example, the TSC-CBP connection provided the FBI 
with information about someone traveling with a suspected 
terrorist and led to the initiation of an investigation of the 
previously unsuspected associate.
    We are a multi-agency organization that is contributing to 
nationwide efforts to keep terrorists out of the United States 
and locate those who may already be in our country. We work 
closely with CBP inspectors, ICE agents and the National 
Targeting Center.
    We look forward to working with the Committee in its 
efforts to secure our Nation's borders. For this unclassified 
hearing, I have only give you a few of our successes. We have 
screened over 2,000 calls in the last 4 months since our 
inception, and assisted in positively identifying a number of 
known or suspected terrorists encountered during Government 
screening processes. I appreciate the Committee's interest in 
our activities and I will be happy to answer any questions you 
may have.
    [The prepared statement of Ms. Bucella appears as a 
submission for the record.]
    Chairman Chambliss. Thanks very much to each of you.
    Mr. Verdery, the day after the President announced his 
seven principles on immigration reform, the byline in the New 
York Times underneath the headline said that the President has 
proposed a plan that includes amnesty.
    Now, would you tell me what your understanding is of the 
President's principles as it relates to any form of amnesty for 
illegal aliens?
    Mr. Verdery. Well, thank you for the question. The proposal 
is not amnesty. As I understand amnesty, that means a 
forgiveness that would lead to citizenship. As I mentioned in 
my opening remarks, this proposal requires people to seek 
citizenship through existing processes. There is no credited 
time that would lead to citizenship, and I think that is the 
distinction that the President has made in presenting these 
principles.
    Chairman Chambliss. You concur with your boss, then. I just 
want you to know that.
    Mr. Verdery. I do.
    Chairman Chambliss. Ms. Bucella, I am curious about this 
one example that you gave us. I want to know how quickly you 
had a turnaround time in determining who this individual was 
that sought reentry into the United States after he had been 
returned to his country.
    Ms. Bucella. I will have to get back to you with the exact 
time, but it was probably within less than 20 minutes.
    Chairman Chambliss. Okay, so it is a pretty immediate time.
    What if that individual uses another name?
    Ms. Bucella. Well, if he uses another name that we have 
been able to previously identify as an alias that they have 
used, then we would pick him up. But if not, if he had false 
identification that had never been used before, we might not 
have gotten him.
    Chairman Chambliss. What are we doing in that respect to 
try to make sure that an individual who says he is John Doe is, 
in fact, John Doe?
    Ms. Bucella. At the Terrorist Screening Center, we have a 
terrorist database. Our database has the names and identifiers 
of the individuals which have been previously identified by 
other Government agencies. In our database at the Terrorist 
Screening Center, we just have the names, the date of birth, 
the passport number and country of origin. But we also have 
accessibility to the classified databases or case management 
files of many government agencies within the United States.
    Each of our members at the call center are able to take a 
look at those databases. So, for example, we do a little bit 
more than just name-match. What we do is we elicit from the 
person at the NTC in communications, please give us some 
descriptors, not just the name, but how tall is the individual, 
you know, eye color, hair color.
    Those are the types of information that, even if they are 
classified, we are able to take a look in our classified case 
management systems and we are able to assist in the identities 
match with the individual that is currently being encountered 
at the border. So it is not just a name. We need to have a body 
in front of the CBP inspector or the ICE agent.
    Mr. Verdery. Senator, if I could just jump in on this, it 
is one of the beauties of the VISIT system that CBP is 
operating that we are finding people. They may claim to be one 
person, but the fingerprint is what is catching them. We had 
one case of identical twins. The pictures looked exactly the 
same, the story was the same. The fingerprints were not the 
same. This person had traveled repeatedly back and forth 
unimpeded, and the fingerprint is what alerted the inspector 
and they were returned.
    Chairman Chambliss. You anticipated my next question to 
you. In addition to fingerprints, do we have any other 
biometric devices that are either in place or that we are 
contemplating using?
    Mr. Verdery. Well, the system is basically fingerprint-
based at this time. We are also taking photographs at the ports 
of entry that enable the inspector to compare the photograph to 
the photograph that is taken at the time of visa issuance for 
those people who have visas. So there is a sense of that. We 
are working on the facial recognition technology in terms of 
the visa waiver countries and we can get into that issue a 
little bit. But, essentially, US VISIT now is a fingerprint-
based system.
    Chairman Chambliss. Commissioner Bonner, on this same line 
I am sure you are familiar with the Department of Justice 
Inspector General's report criticizing the information-sharing 
between the Border Patrol's IDENT system and the FBI IAFIS 
database. The report demonstrates that the Border Patrol cannot 
reliably obtain a hit when they search for possible criminal 
offenders who have been detained at the border.
    Most responses from the agency seem to focus on the lack of 
technology to integrate the two different systems, one based on 
two fingerprints and one based on ten fingerprints. However, 
the IG report specifically calls for a memorandum of 
understanding between the agencies to establish policies and 
procedures for sharing information, regardless of the current 
systems.
    Do you agree with the IG's recommendations, and if so, what 
steps are you taking and what are the time lines for 
implementation?
    Mr. Bonner. Well, first of all, I think that that 
recommendation actually probably does not fully understand 
where we are at in terms of the integration of the IDENT and 
the IAFIS systems for purposes of the Border Patrol because, 
number one, we have an integrated system that can be used by 
the Border Patrol to essentially query both the IDENT system, 
which has a record of people that have been illegally deported 
or denied entry, and so forth, as well as the IAFIS system, 
which is the FBI's huge fingerprint database of people with 
criminal records.
    So we have an integrated system. The question is how do we 
get it out to all of the Border Patrol stations. Right now, we 
have this integrated IDENT-IAFIS system at 31 of the Border 
Patrol stations; it is about 90 units. We need to expand it and 
get it out to all 151 Border Patrol processing stations along 
our border.
    We have a plan for doing that. We have identified funding 
for doing that. I expect some of that funding, by the way, 
coming from the US VISIT program, about $1.8 million of it, and 
about $400,000 that we will fund out of our own budget, 
unfunded money. But we will have the integrated system at all 
of the Border Patrol processing stations within about 7 or 8 
months.
    By the way, this is a tribute to the Department of Homeland 
Security in the fact that this is something that has been 
talked about for years and years and years when the INS 
existed. We are doing it and we are getting it done. That will 
give the Border Patrol, then, the capability when we have it at 
all of these stations in 7 or 8 months to be able to run people 
both against the IDENT system and the IAFIS system, and to 
better identify illegal aliens that have criminal records and 
ought to be treated as aggravated criminals and prosecuted 
through our system.
    Chairman Chambliss. Mr. Verdery, in Secretary Hutchinson's 
February 12 testimony before the Subcommittee he stated, and I 
quote, ``The President's plan provides a disincentive to 
emigrate illegally to the United States when the potential 
temporary worker aliens know in advance that the legal status 
granted under this type of program is the beginning or a path 
to return home and not a path to permanent residency or 
citizenship,'' close quote. That is an important point because 
it really goes to the question of what does the foreign worker 
really want.
    In your deliberations on a guest worker plan, what are the 
primary incentives for a worker to use the legal system?
    Mr. Verdery. Well, for individuals who are here currently, 
there are several. Obviously, it would take away the threat of 
being deported, and we understand that if you are an individual 
working today, it is a nerve-racking experience knowing that at 
any minute you might fall into the hands of law enforcement. 
That puts a tremendous type of stress on family relationships 
and on just day-to-day living. So that is obviously the primary 
thing.
    But in addition to that, the principles outlined would 
allow portability of retirement benefits. They would allow the 
travel that I mentioned in my opening statement. As we know, 
with the increased number of Border Patrol agents and the 
heightened security, it is harder for people to sneak back and 
forth, and that is cutting off the ties that would otherwise 
lead people to be able to return home. If they can come back 
and forth through our ports of entry, subject to US VISIT or 
other processing, that travel is so important.
    But as you mentioned, the key point is signing up for this 
program is a first step to an eventual return home. The 
principles of that are things we need to work out, but that is 
a very key point that Under Secretary Hutchinson made, as well 
you made in your comments, that it is a first step to a return 
home.
    Chairman Chambliss. Ms. Bucella, in news reports Homeland 
Security officials have questioned the utility of the Terrorist 
Screening Center, questioning the possible duplicity of 
resources.
    What is the distinct mission of the Terrorist Screening 
Center in comparison to TTIC and with any intelligence 
functions at the Department of Homeland Security?
    Ms. Bucella. Senator, the Terrorist Screening Center is 
there to consolidate the Government's approach to watchlisting. 
We do not at the Terrorist Screening Center maintain the 
underlying derogatory information on known or suspected 
terrorists. That stays with each of the individual agencies.
    The TTIC is one of the two feeds of information into the 
Terrorist Screening Center. The TTIC, the Terrorist Threat 
Integration Center, is run by the CIA. All known terrorist 
information on international terrorists comes through the TTIC. 
So whether it is the intelligence community or the law 
enforcement community, if there is information about known or 
suspected international terrorists, the feed of information 
comes from the TTIC to us. The FBI maintains all of the 
information on known or suspected domestic terrorists. It is at 
our center where the names become merged, the domestic 
terrorist names and the international terrorist names. So it is 
two different feeds of information.
    More importantly, I have seen firsthand at my center--we 
have about 87 people that work there now. We have right now 
agents from the FBI, Immigration and Customs Enforcement, 
Customs and Border Protection, the Transportation Security 
Administration, the State Department, the Coast Guard and the 
Office of Foreign Asset Control, and we are just beginning.
    This is a wonderful place for true partnership, where each 
agency brings in their expertise based on whatever mission they 
have been doing to assist us in helping to identify known or 
suspected terrorists.
    Chairman Chambliss. What is the operational status of that 
system today?
    Ms. Bucella. Early on when I started in October, we had to 
go from concept to operation by December 1. With the help of 
Homeland Security and setting up a number of FBI agents being 
brought in from around the country, we were physically 
operational by December 1.
    I thought at the time that we would be able to have a 
database just with the names of known and suspected terrorists 
and the other four identities--the name, the date of birth, the 
passport number and the country of origin. I thought we would 
be able to have that set up by this summer. Fortunately, with 
the assistance of my staff, I was able to move that date up to 
March 12. So we now currently have a consolidated database of 
known and suspected terrorists.
    What we did was we went to a number of different agencies 
to figure out not only from their watchlists, but also to 
figure out from their case management systems who they had that 
were identified by the agencies as known or suspected 
terrorists.
    Obviously, the State Department had one of the largest 
consolidated lists through TIPOFF. But there were some other 
lists through the State Department--the Consular Lookout and 
Support System. The Department of Homeland Security had the 
IBIS system, also the TECS system. TSA had their no-fly 
selectee list. The FBI had the violent gang and terrorist 
organization file. Interpol had their terrorist watchlist. The 
Air Force had their top ten fugitives list. The Marshals 
Service had warrant information.
    So what we did was we went to these different agencies and 
we went with information that we needed to gather, just the 
terrorist information. That is what our charter tells us. We 
are only there to assist in the positive identity match or 
assistance in terrorism. So we had to go to the FBI and have 
the FBI not include in our database those individuals that were 
involved in gangs. Rather, we just wanted terrorists.
    We have now consolidated the CLASS system, the TIPOFF, as 
far as the names and identities, and the IBIS, no-fly selectee, 
NAILS, the U.S. Marshals Service's warrant information if it 
related to terrorists only, and the violent gang and terrorist 
organization file as it relates to terrorists only. The 
Interpol terrorist watchlist is something that is still ongoing 
because there are some governments that define a terrorist as 
someone who committed a crime. It might not rise to the level 
of the U.S. Government's definition. So we are making sure that 
those names on our list are truly known or suspected 
terrorists.
    This is not over yet. I mean, this process is very, very 
complex. It is trying to understand what government agencies 
within the United States are actually doing and what 
information they have. It might not be in a watchlist version. 
It may actually just be a part of their case management system 
where they have identified individuals who are of suspicion to 
that agency.
    So this is a tremendous process where, for the very first 
time, both the intel community and law enforcement community 
are joining, and also talking to government agencies that are 
not involved in law enforcement to figure out what processes or 
procedures or entitlements they give to people, rights or 
entitlements, that if they gave that right or entitlement to a 
terrorist here in the United States it would cause them some 
very serious concerns. So it is a huge education process and a 
huge outreach process that we have only just begun.
    Chairman Chambliss. Thank you.
    Senator Kennedy. Thank you. I thank the panel again. What 
you have told is impressive certainly with regard to 
intelligence-gathering and coordination, because that was 
obviously one of the real areas that was a failure in the whole 
9/11 situation, the exchange of information to the Central 
Intelligence Agency and to the immigration agencies.
    In the Border Security Act, we also required the 
integration of all the immigration data systems into an 
interoperable network. Can you give me some idea about where 
that is now?
    In immigration, for example, you have probably six or eight 
different computers and files in terms of different categories 
dealing with immigration issues. One of the things that we 
wanted to try and do is to make sure that you were going to 
have interoperable information and files on that, as well, 
which is enormously important in dealing with law enforcement 
and also in terms of keeping track of people, and with regard 
to ensuring that people that are innocent are going to be 
innocent and those who are violating the immigration laws will 
be able to be considered. We had a requirement in this area.
    We also had the requirement for the establishment of a 
commission in the legislation. What I will do is submit this 
and you can go back and take a look at it and respond, if you 
would rather do that in writing.
    Mr. Bonner. I would appreciate having a chance to do that.
    Senator Kennedy. Good, all right.
    Mr. Bonner. I will just say preliminarily that the former 
INS, which doesn't exist anymore, had more systems than you 
could shake a stick at.
    Senator Kennedy. That is right.
    Mr. Bonner. It had NAILS and IDENT and everything else. The 
one I can speak to is we have integrated IDENT and IAFIS. I 
have just spoken to that. The IBIS system was an integrated 
system that was run by U.S. Customs, and now Customs and Border 
Protection, for the lookout list for both terrorist and other 
purposes.
    Obviously, I should say, Senator, as Ms. Bucella has 
testified to, we now are integrating at least for terrorist 
purposes, for the very important purpose of terrorists or 
suspected terrorists, a master watchlist for the entire 
Government.
    But let me get to you on it because there are so many 
systems and I will get something back to you in short order.
    Mr. Verdery. Senator, if I can just add on that, that was 
part of the deployment package for US VISIT, is having access 
to all those databases at the port of entry. That is the 
deployment at the port of entry. The VISIT system is the 
mechanism to make that happen. As you know, it is at airports 
and seaports today. At land ports, it will be deployed at the 
end of this year and then the following year.
    Senator Kennedy. As you pointed out, Homeland Security 
divided the immigration functions into three different bureaus 
of the new department. In February of this year, my office was 
told that no formal procedures were yet in place to coordinate 
immigration policy among the three bureaus.
    Is that still the case? Are decisions being made in each of 
these agencies? How are they being coordinated and how are we 
developing uniformity in terms of the immigration issues?
    Mr. Bonner. Let me ask Mr. Verdery to respond to that and 
then I might add to it.
    Mr. Verdery. We actually have set up a mechanism to 
coordinate policy development between the BTS Directorate, 
which encompasses Customs and Border Protection and Immigration 
and Customs Enforcement, with Citizenship and Immigration 
Services. CIS is the acronym, the alphabet soup.
    We have a mechanism in place. It is basically a tri-level 
system of decisionmaking and policy development at staff level, 
at mid-level, and then at a level with Under Secretary 
Hutchinson and Director Aguirre to tee up issues that need to 
be resolved, because there are quite a number of issues where 
we both have equities in play--asylum, immigration caps, 
refugee issues, US VISIT issues. On almost anything you can 
think of, we do have to coordinate.
    Of course, before anything becomes an official departmental 
policy, it goes back up through the formal departmental 
clearance process. I think we have come up with pretty good 
working relationships at the various levels to make sure that 
we are on the same page.
    Senator Kennedy. Well, I would be interested--and I will 
include this in the questions--about how that structure is set 
up and how it applies locally, because having all of these 
local entry levels and getting a coordinated policy so that 
they are doing the same thing in different parts of the country 
and have similar kinds of rules is important. I would be 
interested in how it coordinates through those agencies and 
then how it works in terms of the local communities so we get 
the same kind of treatment on this.
    Let me just ask you about the whole area of biometrics. 
This was quite an issue at the time we were looking at the 
legislation. I understand that the U.S. and other countries 
will not be able to meet the October 2004 biometric deadline.
    Can you explain why the deadline can't be met and what 
efforts are being made to reach the deadline, and can you 
provide the Committee with any realistic alternative?
    Mr. Verdery. Yes, sir. As I am sure you have heard, the 
administration has formally gone to the Congress asking for a 
2-year extension of the October 26 deadline that will require 
that travelers from visa waiver countries with passports issued 
after that date would have to have a visa or a biometric 
passport, and also that our department deploy the readers to 
read those passports.
    We have worked very closely with the 27 visa waiver 
countries and the overwhelming majority of them, including all 
of the big ones--the United Kingdom, Japan, Germany--have told 
us they are not going to be able to meet that deadline. It is 
not their fault. The standards that were set for the passport 
by ICAO, the international standard-setting body, were only set 
in May and they are not even really finalized, and so they are 
not on schedule to meet this deadline.
    We have come to the Congress asking for relief because if 
we are required to issue visas, it is going to be very 
difficult for us to have the resources overseas to issue the 
visas. Travel will be deterred and we are looking at an 
overwhelming number of visas that cannot be issued. Moreover, 
then it doesn't make any sense for us to be paying money to 
deploy readers that have nothing to read.
    So we have gone to Congress and asked for this extension, 
and we believe that within 2 years those countries will be able 
to meet the deadline. The technology will be more mature. It 
will make sense to have it in place at that time. So that is 
where stand on that.
    Again, you asked about the U.S. meeting the deadline. It 
does not technically apply to us, but we are going through the 
same passport development process as the visa waiver countries 
and we are on a similar time frame due to similar reasons.
    Senator Kennedy. Let me ask about risk management. Many of 
the security experts conclude that the inspection process must 
be exercised in risk management. We have 500 million people 
moving back and forth across the border and 100 million 
vehicles moving across the ports of entry each year. Even if we 
had all the resources and time required to conduct the 
inspections, it would effectively bring the economy to a halt. 
So we have developed systems that assess and look at risks, and 
we try and identify and quickly process low-risk travelers so 
we can concentrate on the higher-risk targets.
    Now, can you describe what kinds of systems exist in DHS 
that you have already put in place with regard to risk 
management policy?
    Mr. Bonner. We, of course, have been pioneering an 
approach, Senator Kennedy, starting with customs, in terms of 
risk management for all cargo that is coming into the United 
States on containers or otherwise. We are also using risk 
management principles with respect to the, as you say, huge 
number of people that travel into the United States annually. 
It is about 70 million, for example, that arrive on 
international commercial aircraft annually.
    First of all, you have to have information about goods or 
people before they arrive at our borders, and we have done 
that. Congress has enacted some legislation back in November in 
2001 that gave Customs and Border Protection advance passenger 
information on everybody that is flying into the United States. 
So we have it ahead of time, hours before people arrive at our 
ports of entry--JFK, LAX and the like. Similarly, in the cargo 
area we have done this.
    So, number one, we get advance information, get it 
electronically, and then use risk management criteria as to 
what or who to look at, whether you are going to ask a few more 
questions or whether you are going to, in the case of cargo, 
set it aside and do some sort of an inspection.
    So we use targeting systems that have been developed, the 
automated targeting system and, through the Customs and Border 
Protection National Targeting Center, have developed criteria 
to take a look at both goods, primarily, but also an attempt to 
risk-manage for people who are entering the United States. So 
that has been in place.
    We are trying to do that on a number of bases, and I don't 
want to go into a lot of detail in an opening hearing, but one 
is using not just tactical intelligence, but strategic 
intelligence about who and what the threat is to the United 
States in terms of that kind of a risk management system, and 
then using also anomaly analysis based upon the large amount of 
information that we have about goods and cargo and trade and 
the way people travel to try to exercise our authority in terms 
of making decisions as to what to look at and what to 
scrutinize.
    So, essentially, that is a broad overview of essentially an 
approach we have been attempting to take to more meaningfully 
use our limited resources to identify particularly someone who 
might pose a terrorist threat to the United States.
    Senator Kennedy. Well, I think this is enormously important 
and obviously I am interested in it. We saw the criteria, for 
example, you had prior to the time of the terrorists. People 
had Social Security return addresses that weren't obvious, 
although some of these terrorists had phone numbers where they 
could call. So we set up these criteria in terms of this and, 
of course, all of them were able to circumvent it because we 
had the wrong criteria. So it constantly has to be reviewed and 
has to be upgraded, and we are in an entirely different 
situation. I am interested in this and we might pursue it at a 
later time.
    Just finally, Mr. Chairman, we find that many of the 
experienced people that have been involved in immigration are 
leaving the service in detectable numbers now and going into 
these other agencies. I guess the pay and other kinds of 
benefits are different and so there are a lot of people who 
have been experienced agents, border personnel and others, who 
are leaving.
    I don't know whether you are aware of that, concerned about 
it, or have thought about it at all, or have noticed much of a 
problem or have any ideas about how to deal with it. I don't 
know if there is anything you need from us to try and help.
    Mr. Bonner. Well, certainly, it would be a matter of 
concern, but let me just say with the Border Patrol, for 
example, where you were seeing under the INS literally 
attrition rates of 18 to 20 percent just 2 years ago, the 
attrition rate right now as part of Customs and Border 
Protection--I would like to think it is a lot of good 
management on my part, but for whatever reason the attrition 
rate at the Border Patrol is going to annualize out at about 
5.5 percent this year. So that is a tremendous improvement over 
the last 2 years.
    Similarly, with respect to the inspector workforce, Senator 
Kennedy--and I am talking about legacy customs inspectors, 
legacy immigration inspectors--the attrition rate there is 
running right now, this year, at about 5.4 percent, which is 
pretty good. When these immigration inspectors were with the 
INS, it was running last year and the year before we began this 
merger at about 8 percent.
    So it is an improvement, but obviously I am not satisfied 
with those numbers because we are always hurt when we lose 
experienced and good people, but the trend rate right now is 
pretty good with respect to attrition.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Chambliss. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    I would like to ask a few questions about US VISIT and how 
it interacts with the various databases that are used either 
through the Terrorist Screening Center or NCIC and otherwise.
    If I understood your testimony, Mr. Verdery, you indicated 
that one of the principal purposes of US VISIT is to track 
people when they come into the country and when they leave the 
country, and then permit the immigration officials and the DHS 
officials to then match those against various lists.
    Is that correct?
    Mr. Verdery. Well, I wouldn't want to oversell the exit 
part of it just yet. As you know, that is going to be deployed 
over the next couple of years. I can't get into that if you 
want, but I wouldn't want to oversell what we have in place 
today on exit. It is at two pilots, one airport and one 
seaport, and we will be deploying it later. But on the entry 
side, sure, we want to check against the watchlists and the 
criminal databases as people come in.
    Senator Cornyn. Well, I want to ask you a little bit more 
about that, but perhaps, Ms. Bucella, let me ask you this. As I 
understand it, the number of names on the watchlist that your 
center employs is relatively modest, isn't it, compared to the 
number of people, for example, in the NCIC database?
    The purpose of your organization is not necessarily to 
check people who are coming into the country with criminal 
backgrounds and otherwise, but mainly to focus on suspected 
terrorists. Is that correct?
    Ms. Bucella. Yes. We are purely terrorism only, and 
suspected terrorists. If the individual has a name and that 
name is checked through the NTC and they do have the prints 
from US VISIT, we are able still--with the identification of 
the name, if that name is in our database, we are still able to 
assist even with the prints. But, currently, at our database, 
while we are consolidated, we are not fully automated yet. That 
will be done by the end of this calendar year.
    Senator Cornyn. I raise that issue because I want to make 
sure that we understand the magnitude of the challenge ahead of 
you, and indeed ahead of us, and I think it is even bigger than 
perhaps those of us up here might imagine. Certainly, that is 
the case for me.
    What we are talking about, from the last testimony we had 
before this Committee, is we have between 300,000 and 400,000 
people under final orders of deportation that have melted into 
the landscape of this country. We simply don't know where they 
are. We have about 80,000 people who are criminal absconders, 
who have been convicted of a crime, and we don't know where 
they are.
    So I just want to make clear just so I understand and your 
testimony is clear, Ms. Bucella, that the scope of your center 
is not to try to identify either of those groups. Is that 
right?
    Ms. Bucella. Yes, sir, terrorists only.
    Senator Cornyn. Mr. Verdery, ultimately is it the goal of 
the US VISIT program to be able to do that, to identify those 
people so that they can be deported or denied reentry into the 
United States or reported to the appropriate law enforcement 
authorities?
    Mr. Verdery. Yes, of course. The integration of the 
immigration databases will allow an inspector to know if 
somebody has been deported or is under a deportation order. Of 
course, as you mentioned, the problem we have now is that there 
are a large number of people who are in the country who are not 
trying to leave; they are here. And we obviously have 
initiatives in place to try to reduce that number, with a 
priority toward the criminal aliens, as you mentioned, who are 
under deportation orders.
    But, yes, the integration of the databases will make it 
possible so that if somebody were to leave, having had a 
deportation order and then tried to come back in, we will know 
about it and they won't be admitted entry. It happens today.
    Mr. Bonner. Let me just sort of parse this out a little 
bit. If you are coming internationally into the United States, 
we have advance passenger information, the passport number, the 
name, the biographic and that sort of thing. Every one of those 
people are run through NCIC. We have already arrested about 
5,000 people coming in through our ports of entry, our 
airports, because they are wanted in the United States. So they 
are run through NCIC based upon name and biographic. There is a 
hit; we know it before they arrive.
    Now, what US VISIT does is it gives us a biometric 
capability. It gives us two things. One, it tells us if the 
person that was issued the visa at the State Department is, in 
fact, the person who is presenting himself to our inspectors at 
the ports of entry, because we have matched them biometrically.
    Then, secondly, there is a database, and this is the IDENT 
database, basically, that those two inkless prints are scanned 
through. When somebody presents themselves at JFK or LAX or 
Atlanta or wherever it is, those are run against that database, 
and that database does have anybody who has entered illegally 
and subject to a deportation order because INS did take those 
two prints.
    I don't want to say it has everything in the world in it, 
but it also does have the wants and warrants that the U.S. 
Marshal uses in terms of people that are criminally wanted.
    Senator Cornyn. Let me ask you a little bit about what you 
just said because my time is limited. You make a good point 
that where US VISIT has already been implemented at airports, 
there is a possibility to cross-check the various databases, 
assuming the name is on the database, with the entry of that 
person into the country.
    I guess what I was thinking about primarily is places where 
US VISIT has not yet been implemented, but is mandated for the 
end of this year, for example, at 50 of the busiest land-based 
ports in America, a number of which happen to be in my State on 
the 1,200-mile border between Texas and Mexico.
    Is it fair to say just sort of in summary that we still 
have a lot of work to do to get all these names on the 
databases so that then the biometric entry and exit program can 
identify those people as they are coming in and going out?
    Mr. Bonner. A lot of work, yes.
    Mr. Verdery. And a lot of deployment of equipment, of 
course, too.
    Senator Cornyn. Well, let me just make a little bit of a 
plug here, and I know, as I mentioned in my opening statement, 
that we are principally concerned about the security of our 
Nation. That is job number one, no doubt about it. But at the 
same time, we have got to recognize that we have important 
economic relationships with other countries.
    For example, across all of the major ports in my State of 
Texas--Brownsville, McAllen, Laredo and El Paso--a 1-percent 
decline in border crossings costs that region $76 million in 
sales and about 1,500 jobs, and a decrease in gross State 
product of $1.2 billion. That is a 1-percent decrease in border 
crossings.
    I hear a lot, and I suspect Senator Feinstein and other 
border State Senators hear from their constituents their 
concern that while we improve our security efforts, which is a 
goal they share, that we not ignore the economic impact and 
that somehow we find a way to marry these two objectives 
together to keep a strong economy in these areas and to protect 
our Nation against terrorism and those who want to do us harm.
    I worry a little bit because, of course, the next deadline 
for implementation of the US VISIT program is December of this 
year. Can you tell me--perhaps, Mr. Verdery, we will start with 
you--how you are going to do that by December 31?
    Mr. Verdery. It is going to be a lot of work, but we have a 
very good team in place to do it and we have set the structures 
in place that make it manageable. One of those, as you know, is 
our decision as an initial matter to exempt border crossing 
cardholders from processing in US VISIT on a routine basis, and 
that is the overwhelming bulk of repeat travelers for--
    Senator Cornyn. I don't want to interrupt you, but my 
understanding is you don't have a contractor in place yet.
    Mr. Verdery. No. The RFP is on the street. There are 
bidders in place and the award is due, I believe, in about 
three weeks or four.
    Senator Cornyn. And that contractor is going to get it done 
by the deadline of December 31?
    Mr. Verdery. Well, working with us. It is an umbrella 
contract and they will be taking direction from Under Secretary 
Hutchinson and the program office and CBP for specific ports. 
They will be able to get in place the infrastructure, the RF 
technology we need, and also the enhanced processing in 
secondary. We will have a US VISIT capability in secondary for 
visa-holders or for others such as BCC-holders who are referred 
to secondary for some reason.
    Senator Cornyn. Please understand I am not being critical, 
but I do think it is important for us to understand the 
magnitude of what is in front of us here so we can provide you 
the resources that you need in order to be successful. But we 
also need to be realistic about this and make sure it is an 
approach that takes into account the entire context.
    One thing I have learned in Washington, D.C., is people 
don't necessarily, just because they haven't been there, 
understand what life is like along our border between Mexico 
and the United States, where people cross back and forth on a 
daily basis; they have family members on both sides of the 
border. And there is an enormous amount of economic benefit on 
both sides of the border from being able to go back and forth 
relatively easily, and we are talking about legal travel back 
and forth, not terrorists. So I just want to make sure we 
understand the challenge that lies ahead.
    Thank you, Mr. Chairman.
    Chairman Chambliss. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Senator Cornyn is much newer to the Senate than I am, and 
he was very nice, Mr. Bonner. I am not sure I am going to be as 
nice on the integration of the IDENT and the IAFIS system. Let 
me quote from the Inspector General report of March, this past 
month. ``The integration of the IDENT and IAFIS automatic 
fingerprint systems continues to proceed slowly. Since our last 
report, the integration project has fallen another year behind 
schedule and will be delayed further because of JMD's lack of 
planning for the INS' transfer to the Department of Homeland 
Security. The slow progress is even more troublesome because 
the interim enhancements to IDENT resulted in the positive 
identification of approximately 4,820 apprehended individual 
aliens with those of suspects wanted for criminal offenses.''
    It goes on to say that this is a significant risk to public 
safety and national security, and I agree a hundred percent. If 
I could ever put any heat on you, I would put heat on you to 
get this program done. The IG doesn't even think it will be 
operational by 2007, and this I find unacceptable. I mean, we 
have been at this thing year after year after year.
    Mr. Bonner, I greatly respect you. Show some real oomph.
    Mr. Bonner. Senator Feinstein, let me say I have been at it 
in terms of this immigration issue because of the 
reorganization for 13 months. But I will say this, and I will 
correct this if I am wrong, but if the IG is saying it is 
taking several years to do an integrated IDENT and IAFIS 
system, he must be talking about making it available to State 
and local law enforcement or something.
    Senator Feinstein. Have you not seen the report?
    Ms. Bonner. I have seen the report, and I am telling you, 
Senator Feinstein, that with respect to the Border Patrol, I 
have told you that we have identified funding. We have a 
system; it is an integrated IAFIS-IDENT system. We have already 
put it in place in some Border Patrol stations, but every 
Border Patrol station--
    Senator Feinstein. Okay, so a Batras or a Resendez case can 
never happen again. Is that what you are telling me?
    Mr. Bonner. I would like to say they would never happen 
again, but it is true that with an IDENT-IAFIS system, it is 
much, much less likely that it could happen again, I mean short 
of Border Patrol agents not following procedures or something 
like that. The system will be there within 7 or 8 months.
    By the way, part of this requires the Appropriations 
subcommittees of the Congress to approve the spending plan for 
US VISIT, which I hope they will do. Within 7 months of that, I 
am telling you I will have the integrated IAFIS-IDENT system at 
all 150, more or less, Border Patrol stations that do 
processing.
    Now, that will, I think, take us a very, very long way to 
making sure something like the Batras case, which did not occur 
on my watch, by the way--this was in 2002, absolutely 
deplorable, and so was the Resendez case back in 1999.
    Senator Feinstein. If people don't know, these are major 
murderers. If you read it, it just chills you how this thing 
got botched up.
    Mr. Bonner. Batras raped two nuns and murdered one of them. 
So we have got to do everything we possibly can to see that 
that cannot happen and that it does not happen. And we are, I 
will assure you, moving forward aggressively to get this 
integrated IAFIS-IDENT system to every Border Patrol station in 
this country. And subject to getting the spending plan 
approved, which I hope would be done, I think we will get it 
done within 7 months.
    Senator Feinstein. Can you give us a date which I can write 
down?
    Mr. Bonner. Within 7 months of that, and I would hope that 
that will be done certainly this month that that spending plan 
will be approved.
    Senator Feinstein. Within 7 months of when?
    Mr. Bonner. Within 7 months of the approval of the spending 
plan for the US VISIT program that sets aside $1.8 million to 
deploy the integrated IDENT-IAFIS system for the Border Patrol. 
I have got a roll-out plan for it within 7 months to have it in 
place.
    Senator Feinstein. As they say, you are on the record.
    Mr. Bonner. I am on the record on that, and I will be back 
here explaining it if it isn't done, but I want our people to 
know.
    Senator Feinstein. All right, that is good and I appreciate 
it. You gave me an answer and I appreciate that. Thank you.
    I wanted to mention the visa waiver program. It is my view 
that this is our soft underbelly. The visa waiver program has 
been used by terrorists and it will again be used by 
terrorists. I just looked at the numbers in 2002; they are way 
down. It is 13,230,000 in 2002. I remember before 9/11, we were 
talking about upwards in the 20 millions of people that came in 
under a visa waiver program.
    So I don't accept that we can't get the fraud-proof 
passports in place. The other nations may not want to do it. My 
view is then they should go through the regular passport, you 
know, through all that has to be done. There are 28 countries 
involved in this now, and 13 million people in 2002. It is low, 
comparably, to what it was in the 1990's and in 2000. I have a 
hard time seeing why we can't get it done. I mean, if somebody 
wants to drop out of the program, they should drop out of the 
program.
    Mr. Bonner. I am going to refer that to Assistant Secretary 
Verdery, if you don't mind, Senator.
    Mr. Verdery. Senator, as I mentioned earlier, we believe 
that the overwhelming majority of countries cannot and will not 
meet the deadline for reasons largely out of their control.
    Senator Feinstein. What would that be?
    Mr. Verdery. The technical standards that would cover what 
the biometric passports look like are not sufficiently in 
place. They were just issued by ICAO earlier this year and are 
not sufficiently detailed to allow people to have the lag time 
to get the chips in place, to have the programs in place to 
meet the deadline. We couldn't meet the deadline ourselves if 
it applied to us, which it doesn't.
    Moreover, if we force people to rapidly try to meet the 
deadline, we are going to get inferior technology that is going 
to be much more difficult for us to make useful at the ports of 
entry.
    Senator Feinstein. Refresh my memory. When did we do this, 
and didn't we have it staged? I am trying to remember.
    Mr. Verdery. There were two deadlines maybe which you are 
remembering. There was a deadline for a machine-readable 
passport.
    Senator Feinstein. That is right.
    Mr. Verdery. Last October was that deadline. The countries 
couldn't meet that either, and that provision had a waiver in 
it which Secretary Powell exercised, a 1-year waiver, which 
will now coincide with October 26 of this year. We understand 
that the countries will meet that deadline. That does not cover 
the biometric part of the passport, though, and they will not 
meet it, with very few exceptions.
    If they don't and we have to begin issuing visas, as one 
example, right now in Japan we issue about 100,000 visas. We 
have the personnel over there to do 100,000. We would have to 
do 1.5 million, and it is just not possible to ramp up our 
resources in those countries to do that kind of workload.
    In addition, we believe lots of those travelers will decide 
not to come to the United States. They will say I don't want to 
pay the money, I don't want to have to wait for an interview, I 
don't want to wait in line; I will go to some other country 
that doesn't require a visa. So it is a difficult problem for 
sure.
    Senator Feinstein. But, respectfully, you are not the 
chamber of commerce. I know you know that, but I think one of 
the reasons that Mr. Bonner is so good is that the border has 
long wanted a law enforcement person, not a trade expediter. We 
get into this all the time, and if 9/11 didn't teach us that 
security has to come before everything else, I don't know what 
will. That is why it is really depressing to hear that
    Mr. Verdery. We actually have a briefing scheduled tomorrow 
for the bipartisan staff on this issue on our mitigation plan 
for this issue, which I think you would find interesting. So 
perhaps we could double back with you after that.
    Senator Feinstein. Yes. I think you ought to brief the 
Senators because I think this is a huge vulnerability.
    Mr. Verdery. We, of course, would be willing to do that.
    Senator Feinstein. And it is going to be taken hold of by 
somebody who is going to do something terrible with it.
    Now, let me ask you about another problem. When I last 
looked at through flights--and I can't remember whether it was 
2001 or 2002--there were two 2,000 people who had absconded 
from through flights; in other words, when passengers are 
isolated, planes are refueling and moving through the United 
States.
    Do you have a figure for 2003 of the number?
    Mr. Bonner. I don't know that I have the number, but I can 
tell you we canceled the TWOV program, the transit without visa 
program. I know that there is some discussion as to whether and 
in what circumstances it should be reinstated.
    Senator Feinstein. So that is out now?
    Mr. Bonner. It has been out now since--wasn't it August of 
last year? We considered it to be a security threat. This is 
through the Department of Homeland Security and the Secretary. 
So we terminated the program, and that was a program where 
people landed and there wasn't adequate security. They were 
moving not to the U.S., but from some country, landing in the 
U.S. and then flying out from the U.S. to another country.
    Now, we are looking at it, I know, to see whether, with 
significantly higher security, it could be reinstated in some 
way or another. I don't believe a decision has been made on 
that subject.
    Senator Feinstein. Don't you think we are doing pretty well 
without it?
    Mr. Bonner. Well, we have done okay without it so far, but 
the question is--well, I think there is a question as to 
whether or not for certain kinds of flights--you know, I am 
thinking of the flight that comes up from Brazil to Japan that 
comes through LAX and that sort of thing. If you had enough 
security controls, you might be able to reinstate it. I am not 
going to state one way or the other what my view is because I 
don't think the Department has decided where we are going to go 
on that.
    Senator Feinstein. Mr. Chairman, I see the red light. Will 
you allow me one more question?
    Chairman Chambliss. Sure.
    Senator Feinstein. A USA Today article--``catch and 
release'' is the program. Eighty-six percent of notices to 
appear do not appear. In 2003, Border Patrol agents caught 
905,000 people on the southern border.
    What percent were given a notice to appear and what percent 
did not appear?
    Mr. Bonner. First of all, if you take that 900,000 more or 
less, Senator, about 40,000-some of those were non-Mexicans. It 
is a term of art, but I will use it because the Border Patrol 
uses it. It is ``other than Mexican,'' OTMs. So it is really 
that population that is subject to--well, I am not sure I want 
to use the ``catch and release'' policy, but what is happening 
with respect--
    Senator Feinstein. I think that is a mistake. I mean, why 
shouldn't everybody be treated the same?
    Mr. Bonner. Senator, in an ideal world all of them would be 
detained and then they would be removed back to their home 
countries. As I understand it, the detention part of this issue 
is being handled not by Customs and Border Protection, but by 
ICE. And we are looking at, through the Department and through 
the Border and Transportation Security Directorate, trying to 
find the funding to permit us, the Border Patrol, to detain a 
hundred percent.
    That is the way it should be, and we are trying to identify 
funding to permit us to do that so that they can be detained 
and then removed. But right now, about a third of the other-
than-Mexicans are apprehended by the Border Patrol and because 
there isn't funding to detain them on the detention end of 
this, they are being given notices to appear. By the way, these 
are also sometimes called notices to disappear because very few 
illegal aliens that are apprehended respond to them.
    But I can tell you this: We are working on this issue very 
hard with the Department and through the Border and 
Transportation Security Directorate to identify money so that 
we can terminate this practice so that all ``other than 
Mexicans'' are detained and removed from the United States, 
because it is, in my judgment, invitational, where you have 
notices to appear.
    Throughout Central America and Brazil and other areas of 
the world, they know that we are doing this and it simply 
invites more illegal aliens, which increases the problem of 
border control for the Border Patrol. So we are looking at it 
and I think we are going to hopefully make some progress.
    Senator Feinstein. I also think that from the point of view 
of national security, the non-Mexicans offer more of a threat 
to our country. Yet, they have the lax rule of a notice to 
appear, and if this 86-percent figure in USA Today is correct, 
you are right; most don't bother, so they disappear. So that is 
a whole other area where people are coming in.
    Mr. Verdery. Senator, if I could just add, as the 
Commissioner mentioned, the responsibility for the detention 
and removal falls within ICE, not within CBP. There are 
significant requests for new resources for ICE for detention 
and removal. We are also working on some innovative programs to 
try to find alternatives to detention that will have security 
alternative monitoring techniques and the like.
    Perhaps most crucially, we are working with the government 
of Mexico on an interior repatriation strategy so that the 
Mexicans that are picked up can be transported back to the part 
of Mexico from which they came, as opposed to being just dumped 
across the border and are able to come back the next day or the 
next hour.
    Senator Feinstein. Are you telling me that the wristband 
rumor is correct?
    Mr. Verdery. It is a little more stringent than a 
wristband, trust me. Electronic monitoring that many States use 
is an idea. It is, in our view, better than the run letter, as 
the Commissioner mentioned. But, again, this interior 
repatriation is absolutely critical so that we break the cycle 
of people returning time and time again.
    We are close to an agreement with the government of Mexico. 
We are working with them. A member of my staff was down there 
with a team just this past week to try to negotiate the final 
touches on an agreement that Secretary Ridge and Secretary 
Creel agreed to, in principle, during their recent trip to 
Mexico. It is absolutely crucial.
    On the TWOV, I would be happy to brief you about where that 
program stands, the transit without visa program, and where 
that stands.
    Senator Feinstein. You are good on acronyms.
    Mr. Verdery. It is a job hazard.
    Senator Feinstein. Thank you. I appreciate it. Thanks, Mr. 
Chairman.
    Chairman Chambliss. I hope you all can understand the level 
of frustration that we all share with Senator Feinstein here. 
We may have to extend these deadlines. From a practical 
standpoint, they are not going to be complied with, and I think 
that message has gotten through. But by the same token, these 
deadlines were either asked for by the administration or 
certainly put in place with the concurrence of the 
administration.
    If there are real reasons why we should do it, then 
obviously we are going to have to do it. The passports, I 
think, are a good example why, but some of these other 
deadlines I really do question the extension on. So we will 
look forward to continuing the dialogue, but I hope you will 
carry the message back that there is a high level of 
frustration on the Hill relative to these extensions.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I certainly 
agree with that, and I thank Senator Feinstein for her 
knowledgeable presentation of many of the issues that are out 
here.
    Mr. Bonner, it is good to see you. We had an opportunity to 
serve together as United States Attorneys. Mr. Verdery, your 
boss was also in that group and was here not long ago.
    Let me just say fundamentally that I have no confidence--
and I hate to say this--I have no confidence that there is a 
serious commitment by this Congress or this administration to 
get our immigration system straight. The American people simply 
want that. They are not for dramatically reducing the number of 
people that come into America. They believe America is a nation 
of immigrants just like I do, but they expect our Government to 
be able to enforce the law and they still haven't understood 
how pathetic the situation is.
    When you have 900,000 arrests and 86 percent released that 
abscond, it is just a mockery of law. I mean, surely you know 
this. So what I am saying is I am not supportive of plans to 
deal with the failure. I believe it is time for us to confront 
our failed system.
    I would expect, Mr. Verdery, that if you don't have the 
money to do what needs to be done, you would be here demanding 
the money and asking why not and blaming this Congress if you 
can't get the job done, with a clear presentation of how, if 
you had a certain amount of money, you could change this failed 
system. So that is frustrating.
    Now, Mr. Verdery, I asked your predecessor who was here 
before, Mr. Hutchinson, about document fraud. Mr. Bonner was a 
United States Attorney. I have prosecuted document fraud cases. 
We are told that one of the reasons we can't do anything about 
immigration is because everybody has illegal documents. So my 
question to you is how many cases have been prosecuted in the 
last year for document fraud.
    Mr. Verdery. I don't have the numbers in front of me here 
today. I can tell you from seeing our operations reports 
everyday, almost every single day our Immigration and Customs 
Enforcement agents are taking cases on illegal documents, 
whether they are fake passports, fake immigration documents, 
fake visas and the like.
    I would have to get back to you on the specifics, but as 
you know from the conversations with Under Secretary 
Hutchinson, this issue of document fraud and document integrity 
is a huge priority for him and for our directorate, and that 
has filtered down to Customs and Border Protection and 
Immigration and Customs Enforcement. His inspectors are out 
there everyday seizing these documents as they come in, but 
clearly there is work to be done. That is one of the beauties, 
again, of the VISIT program is it can see through these phony 
documents.
    Senator Sessions. Well, my question is, to which we don't 
have the answer--somehow we have just been told it is going to 
be May. So I can call the Department of Justice, because they 
have an annual report of convictions in various categories. So 
I suspect I can get it from the Department of Justice if your 
agency doesn't know.
    A person with a false document, Mr. Verdery, represents one 
of many. In other words, if he has a false document, then 
somebody has probably made many, and what you should do is 
investigate the matter and find out who is making them and 
prosecute that person. If that is done systematically and with 
attention and aggressiveness, you can begin to make a dent in 
that.
    Mr. Bonner, do you find that Assistant U.S. Attorneys are 
prosecuting aggressively document cases that you bring to them?
    Mr. Bonner. Every case where somebody presents to Customs 
and Border Protection, because all the immigration inspectors 
on the front line are part of CBP, a false or fraudulent 
document, whether that is a false or phony passport, 
counterfeit visa or other fraudulent document, each and every 
one of those cases are presented to a U.S. Attorney's office 
for prosecution.
    No, I am not satisfied because I know from cases that I 
have been looking at that very frequently we do not get 
criminal prosecution through the Justice Department and the 
U.S. Attorneys' office, and we ought to.
    Senator Sessions. I am sure they get a little jaded, and it 
is not as exciting as prosecuting some public corruption case 
that is on the TV news every night. But I think you have a 
right to insist that the Department of Justice prosecute your 
cases, and I think you need to be making those cases and taking 
them to them. And if they are not getting prosecuted, I would 
like to know.
    Mr. Verdery. Senator, we can get you the statistics. You 
don't have to go to Justice. We can get them for you. I can get 
them tomorrow.
    Senator Sessions. I have been asking for them a month ago, 
and now I am told you can get them in May. I mean, you should 
be able to get them in two hours.
    Mr. Verdery. We will do better than that.
    Senator Sessions. You know, you have the situation with 
employers, and I had the numbers here. I believe that the 
President's budget request includes an increase of $23 million 
for worksite enforcement. It would more than double the number 
of worksite enforcement investigations, I am told.
    I don't know what I did with my numbers here, but as I 
recall, last year there were 13 cases. Is that about right to 
you? How many cases did you do last year on worksite 
enforcement?
    Mr. Verdery. Thirteen does not sound right to me. I know 
alone on Operation Tarmac, which was the investigation about 
illegal workers on airport sites, there were over 1,000 people 
arrested and convicted in that initiative alone.
    Senator Sessions. What kind of prosecution was that, or 
enforcement action was that?
    Mr. Verdery. These were people who were illegally working 
at airport facilities and were either deported or incarcerated, 
depending on their particular record.
    Senator Sessions. All right. Well, this is what I have been 
told with regard to employer sanctions. We heard about Wal-
Mart, and you deserve credit for stepping up on that. I am not 
surprised at the hive that exists to defend this illegality in 
immigration that attacks you for it, but you are doing the 
right thing in pursuing those issues.
    In 2002, notices of intent to fine were sent to only 42 
employers, and only 66 employers actually paid fines in 2002. 
Some of those were notices obviously issued the year before. In 
2003, the number of fines to employers dropped to 21, and the 
unconfirmed number of notices of intent to fine I have been 
given is a mere 13. So that is there. So with $23 million as an 
increase, we ought to be able to get more than 13 notices sent 
out, shouldn't we?
    Mr. Verdery. I agree, and I would not sit here today and 
argue that over the last, say, half dozen years that workplace 
enforcement of immigration laws has been what it should be. 
Most of that obviously pre-dates our Department, but I think 
you are seeing an increased willingness to enforce the laws. 
There is no hesitation here to do that, especially if the 
Congress were to pass a temporary worker program. Effective 
enforcement has to come with that. Otherwise, there is no 
incentive for people to use it. So we need to enforce the 
existing laws and we need to enforce the laws that you might 
pass.
    Senator Sessions. Well, you have said that well. My 
experience as a prosecutor has been that if you don't prosecute 
investigators' cases, they become demoralized. If the guys out 
there on the border arrest 900,000 people and 86 percent of 
them don't show up for a hearing, they wonder what they are 
doing. It is a cycle that breeds on itself.
    Mr. Bonner. Senator Sessions, could I just make a comment?
    Senator Sessions. Yes, sir, Mr. Bonner.
    Mr. Bonner. First of all, the INS, which no longer exists, 
criminal investigators are part of ICE. So they have that 
interior immigration enforcement function, including workplace 
enforcement. But let us not repeat the mistake of the 
Immigration Reform and Control Act of 1986. I think the 
President has a good proposal here.
    You and I know that the employer sanctions of that law were 
watered down to almost nothing, where you had to have two 
administrative warnings for knowingly hiring illegals, and only 
the third one could result in a criminal prosecution and that 
was a misdemeanor. So we are going to have some sort of a more 
serious mechanism for--at least I think we ought to be 
considering a more serious mechanism than that.
    Of course, the document fraud, and you have been referring 
to that--in terms of being able to present to the employer two 
documents, which can be bought on the streets of Los Angeles 
for under--counterfeit, fraudulent drivers' licenses and Social 
Security cards, which is all you need to prove that you can be 
legally employed in the United States, can be bought for under 
$50 on the streets of Los Angeles, and probably on the streets 
of Mobile for all I know.
    Anyway, that is one of the things that we certainly are 
going to have to look at and make sure that we have got some 
meaningful sanctions here, if we are going to have a good 
temporary worker program, as the President is proposing, that 
has some real enforcement parts to it. That is what the 
President wants. I mean, he wants something that does have a 
strong enforcement component, and one that will assure us that 
at the end of the day we are going to be able to better control 
and secure our borders against criminals and potential 
terrorists.
    Senator Sessions. Well, Mr. Bonner, you are saying that 
well and all of that is true, but I think we have been so 
overwhelmed so long that we have just gotten kind of stunned 
and nobody is really looking at the overall picture and saying 
unless we do ``x'' number of things, maybe ten different 
things--if we do those ten things, though, like you said, I 
think all of a sudden numbers change. If it is effective at the 
border, maybe you don't have to make 900,000 arrests. And if 
they removed from the country promptly and effectively, maybe 
they don't come back as often. So there are a lot of things 
that can be done.
    Briefly, Mr. Bonner, do you know what percentage of 
documents that get presented are fraudulent? Do you have any 
numbers on that?
    Mr. Bonner. Do you mean of the percentage of overall 
documents that we are presented with?
    Senator Sessions. Yes.
    Mr. Bonner. That would be infinitesimally small, but I 
think the total number would be--you know, it is not 
insignificant and I will get it for you. I don't have it at my 
fingertips, but we will get it to you in the next day or two.
    Senator Sessions. This will be the last question.
    On the NCIC, Ms. Bucella, John Muhammad was potentially 
identified in Alabama, the sniper here. The way local law 
enforcement operates is that they are tied directly to the 
National Crime Information Center. They utilize that on a daily 
basis. To me, it is absolutely critical that every individual 
who has any connection to violence or terrorism be immediately 
put in the NCIC.
    In addition to that, every absconder, in my view, who has 
been ordered by a court to appear in court and absconds should 
immediately be put in there. We know that we are not close to 
putting the absconders in there. Therefore, if somebody 
absconds in El Paso, Texas, and comes to Alabama and he is 
picked up for burglary or speeding, the local police will not 
get a hit when they access the NCIC.
    I guess my question to you first is what is the status of 
being able to enter into the NCIC promptly anyone that may have 
violated immigration laws and has any connection to terrorism 
or violence?
    Ms. Bucella. Senator, I can't speak to NCIC as to all the 
other categories that are entered in there because the 
Terrorist Screening Center is only concerned with known or 
suspected terrorists. What I can tell you is there have been a 
number of names that have been entered into the NCIC, so that 
the State or local law enforcement officer puts the name in, 
and it could be someone that they pulled over for a traffic 
violation.
    Now, they actually have immediate, ready access. The NCIC 
comes back and identifies that they are to call our Terrorist 
Screening Center, and for the very first time the local law 
enforcement officer actually responds to the person that they 
have pulled over. If they have actually pulled over a known or 
suspected terrorist, there is immediate action from the joint 
terrorism task force that reaches out to the State or local law 
enforcement officer. This has been happening since we opened up 
our center on December 1, and we are really working hard with 
the State and locals to get the message out there to run 
everybody through the NCIC.
    Senator Sessions. Well, I think that is just a critical 
component of modern law enforcement. If a person is released on 
bail and they skip for one joint of marijuana, it goes into 
NCIC. If there are stopped somewhere else in the United States, 
there is a hit and that person is detained.
    Again, my question is are you certain right now that the 
system is working with regard to those who may have connections 
to violence or terrorism? Are those getting in the system 
promptly?
    Ms. Bucella. I cannot speak to anything other than 
terrorism. Our only function at the Terrorist Screening Center 
is to put names of known or suspected terrorists into the NCIC. 
As to all those other crimes, that would be a question better 
directed to the FBI.
    Senator Sessions. Thank you. Thank you, Mr. Chairman.
    Mr. Verdery. Mr. Chairman, if I could, I actually have an 
answer to the question about document fraud. In fiscal year 
2003, 105 defendants prosecuted, 83 convicted by ICE.
    Senator Sessions. I would say that is a very, very low 
number, in my opinion. If you prosecuted at the level of 
several thousand a year, you could break the back of that 
system. At 100 a year, that is not touching it. That is just my 
best judgment.
    And it wouldn't be impossible. Those cases are not that 
hard to prosecute for the prosecutor. They may be a little hard 
to investigate, but not that hard to prosecute. If the Attorney 
General tells his U.S. Attorneys he expects them to prosecute 
those cases and you bring those cases to them without any new 
money, you could easily have 1,000, 2,000 prosecutions, in my 
view. Most people will plead guilty before going to trial on a 
case like that.
    Thank you.
    Chairman Chambliss. I want to thank you all for the great 
job you all are doing. Getting our arms around this immigration 
issue is a huge, huge problem. It appears to me just from what 
we have said today and what came out of our previous hearing 
that our concentration has been in the area of trying to make 
sure that from a terrorist threat perspective we have committed 
the resources and concentrated on doing a pretty good job, at 
least at this point in time, in getting that system up.
    I am pretty encouraged by what you said, Ms. Bucella. And 
the numbers, Mr. Bonner and Mr. Verdery, that you have to deal 
with are obviously far greater. We are going to move toward 
implementation of some sort of H-2A reform, would be guess, 
hopefully between now and the end of the year as the first step 
in the immigration reform process.
    A number of us have bills out there, but we can't think 
about that kind of reform without having confidence that our 
borders are going to be secure, because if we make reforms and 
we continue to have the flood of illegal immigrants coming in, 
whether it is for agricultural purposes or other purposes, it 
is not going to work. So I hope that we are giving you the 
resources that you need to do the job. If we are not, Senator 
Sessions is right; you all need to be up here telling us you 
need the resources.
    Ms. Bucella, one other comment I would make on your end is 
that while this information is plugged into the system and we 
have the names, and I guess any other number of aliases that 
these folks have used over the years, we have got to move 
toward some sort of recognition of really who these people are 
before they hit our borders.
    Again, if it is resources, we have got to commit the 
resources. Congress has got to make a commitment. If this 
immigration is going to work and if stopping the terrorists 
before they get here is going to work, we have got to commit 
the resources to it, and I think this Committee is prepared to 
make recommendations along that line.
    I commend you on the work you are doing and I just ask you 
to move ahead with even greater speed than what you have moved 
thus far. As we move toward the issue of these deadlines, we 
have got to be kept informed of exactly what is going on out 
there with respect to your agencies, so I would ask you to do 
that.
    With that, we thank you for being here today and we are 
going to move to our second panel.
    Our next panel is Mr. Daniel Griswold, Associate Director 
for Trade Policy Studies at the Cato Institute here in 
Washington, D.C.
    Mr. Griswold, welcome. We are glad to have you.
    Ms. Margaret D. Stock is an assistant professor at the 
United States Military Academy, in West Point, New York.
    Ms. Stock, thank you very much for being here.
    We have your written statements, and again we would ask 
that you summarize those statements and we look forward to 
hearing from you.
    Mr. Griswold.

  STATEMENT OF DANIEL GRISWOLD, ASSOCIATE DIRECTOR FOR TRADE 
        POLICY STUDIES, CATO INSTITUTE, WASHINGTON, D.C.

    Mr. Griswold. Thank you, Chairman Chambliss and members of 
the Subcommittee, for allowing the Cato Institute to testify on 
the pressing issue of border security and immigration reform.
    Since the terrorist attacks of September 11, 2001, Congress 
and the administration and this Subcommittee have labored to 
balance the need to secure our borders with our need to remain 
a free society open to the world. Long-time opponents of 
immigration seized on the attacks to argue against legalization 
of Mexican migration and in favor of drastic cuts in existing 
levels of legal immigration.
    But any connection between terrorism and illegal 
immigration from Mexico is tenuous. None of the 19 hijackers 
entered the country illegally or as immigrants. They all 
arrived in the United States with valid temporary non-immigrant 
visas. None of them arrived via Mexico. None of them were 
Mexican. Sealing our southwestern border with a three-tiered, 
2,000-mile wall, patrolled by a division of U.S. troops, would 
not have kept a single one of those terrorists out of the 
United States.
    The problem, Mr. Chairman, is not too many immigrants, but 
insufficient control over who enters the country. Immigrants 
who come to the United States to work and settle are but a 
small subset of the tens of millions of foreign-born people who 
enter the United States every year. In fact, on a typical day, 
as you know, more than 1 million people enter the United States 
legally by air, land and sea, through more than 300 ports of 
entry. In a typical year, more than 30 million individual 
foreign nationals enter the United States as tourists, business 
travelers, students, diplomats and temporary workers.
    Now, of those, about 1.3 million will eventually settle 
here as permanent immigrant residents, some of them illegally. 
In other words, less than 5 percent of the foreigners who enter 
the United States each year intend to emigrate in any sense of 
the word. We could reduce immigration to zero and still not be 
safe from terrorists who might enter on temporary non-immigrant 
visas.
    Our focus, one might say our obsession in recent years with 
stifling the migration of Mexicans across our southwest border 
has not served our National security interests. It has diverted 
resources and attention away from efforts to identify and keep 
out people who truly mean to do us harm.
    While we were guarding the back door in 2001 to make sure 
no Mexican immigrants entered our country illegally to work, we 
were neglecting the far larger barn door of temporary non-
immigrant visas, through which all the September 11th hijackers 
entered.
    Most members of Congress understand that willing workers 
from Mexico are not a threat to America's national security. In 
May 2002, Congress overwhelmingly approved and the President 
signed the Enhanced Border Security and Visa Entry Reform Act. 
We don't get to say this very often at Cato, but that was a 
good piece of legislation. The law was aimed at the right 
target: keeping terrorists out of the United States.
    It mandates the timely sharing of intelligence with the 
State Department and border control agencies, and use of 
machine-readable and tamper-resistant entry documents, among 
other common-sense reform. Notably absent from the bill were 
any provisions rolling back levels of legal immigration or 
bolstering efforts to curb illegal migration from Mexico.
    Indeed, legalizing and regularizing the movement of workers 
across the U.S.-Mexican border would enhance our National 
security by bringing much of the underground labor market into 
the open, encouraging newly-documented workers to fully 
cooperate with law enforcement officials and freeing resources 
for border security and the war on terrorism.
    Real immigration reform would drain a large part of the 
underground swamp of smuggling and document fraud that 
facilitates illegal immigration. It would reduce the demand for 
fraudulent documents, which in turn would reduce the supply 
available for terrorists trying to operate surreptitiously 
inside the United States. It would eliminate most of the human 
smuggling operations, I believe, overnight. The vast majority 
of Mexican workers who enter the United States have no criminal 
records or intentions. They would obviously prefer to enter the 
country in a safe, orderly, legal way through the standard 
ports of entry rather than putting their lives in the hands of 
unscrupulous smugglers.
    Just as importantly, legalization would encourage millions 
of currently undocumented workers to make themselves known to 
authorities by registering with the Government, reducing cover 
for terrorists who manage to enter the country and overstay 
their visas. Workers with legal documents would be more 
inclined to cooperate with law enforcement because they 
wouldn't fear deportation.
    Immigration reform would free up enforcement and border 
control resources to focus on protecting the American homeland 
from terrorist attack. Our Department of Homeland Security, 
which I believe has a hiring freeze on right now, should 
concentrate its limited resources and personnel on tracking and 
hunting down terrorists instead of raiding chicken processing 
plants and busting janitors at discount stores.
    Congress should respond to the leadership shown by 
President Bush and reform our dysfunctional immigration system. 
Immigration reform would help our economy grow, it would reduce 
illegal immigration and it would enhance the Federal 
Government's ability to wage war on terrorism.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Mr. Griswold appears as a 
submission for the record.]
    Chairman Chambliss. Thank you.
    Professor Stock.

  STATEMENT OF MARGARET D. STOCK, ASSISTANT PROFESSOR OF LAW, 
 U.S. MILITARY ACADEMY, WEST POINT, NEW YORK, ON BEHALF OF THE 
            AMERICAN IMMIGRATION LAWYERS ASSOCIATION

    Ms. Stock. Thank you, Mr. Chairman. I am honored to be here 
in two capacities. First, I am a member of the American 
Immigration Lawyers Association and I have been practicing in 
the field of immigration law as an attorney for more than 10 
years. I am also here as an expert in the area of 
constitutional, military, national security and comparative 
law, areas in which I teach.
    I am an assistant professor in the Department of Law at the 
United States Military Academy, at West Point, New York, and I 
am also a lieutenant colonel in the Military Police Corps, in 
the United States Army Reserve. But I need to emphasize that 
the statements, opinions and views I am expressing today are my 
own opinions and not the opinions of the United States Military 
Academy, the Department of the Army or the Department of 
Defense.
    With that said, you have my written testimony and I only 
want to make three key points which are summarized as follows.
    First, we secure our borders best by enhancing our 
intelligence capacity, and national security is most 
effectively enhanced by improving the mechanisms for 
identifying actual terrorists, not by implementing harsher 
immigration laws that blindly label all foreigners are 
potential terrorists. In fact, that can hurt our intelligence 
collection capability if it causes people in immigrant 
communities to be unwilling to come forward and provide us with 
the information that we need in order to locate the real 
terrorists.
    Any policies and practices that fail to distinguish between 
terrorists and legitimate foreign visitors or foreign travelers 
are ineffective security tools that waste our valuable 
resources, damage the U.S. economy and alienate those groups 
that we need to cooperate with in the war on terrorism. They 
also promote a false sense of security by promoting the 
illusion that we are reducing the threat of terrorism when, in 
fact, in many cases we are not actually doing that.
    Part of security is economic security. We need to stop 
thinking about security as simply a matter of keeping people 
out of the country and also think about the fact that security 
has other dimensions. We can't fight a global war on terrorism 
with an economy that has been hampered by the fact that we 
can't get businesses in the country. If American workers are 
out of jobs because the Japanese investors can't come into the 
country, for example, that is going to hurt our security. We 
need to think broadly about security and not limit that 
concept.
    Reforming our immigration laws is critical if we do it in a 
way that will help us identify those who want to hurt us and 
distinguish them from those that are no national security 
threat to us and are already here, already residing here, 
paying taxes, part of our family networks, even in some cases 
part of our military.
    Second, we need to make our borders our last line of 
defense, not our first line of defense. The physical borders of 
the United States should be our last line of defense because 
terrorism does not spring up at our borders. We need to 
reconceptualize how we think about our borders because in the 
modern world they really start overseas and they start at our 
consulates overseas.
    When people refer to our borders, they usually think of the 
geographic boundaries between us and Canada and Mexico. But to 
enhance our security, that has to be the last place, not the 
first place that we look to defend against terrorism. So we 
have to pursue initiatives such as the North American Perimeter 
Safety Zone, increase the use of pre-clearance procedures, pre-
inspection programs overseas, and provide U.S. officials the 
opportunity to check people before they even get on a plane and 
come to America, before they even try to approach the border.
    Third, comprehensive immigration reform is an essential 
component of any effort to enhance our National security. Right 
now, our current immigration system, as other people have said, 
is dysfunctional. I agree with that entirely. We currently 
allocate massive resources in a futile attempt to enhance a 
system and enforce a system that does not work.
    Our enforcement efforts could be far more effective if our 
laws made sense. We have laws that simply do not make sense, 
and I think that is best exemplified by the quote from Karen 
Croshare in 2001, an INS spokesperson, who said that 
immigration law is a mystery and a mastery of obfuscation. I 
think she was right about that.
    A new break-the-mold guest worker program is an essential 
component to sensible reform that would help enhance our 
security and secure our borders because it would legalize the 
flow of people that is happening anyway. It is insufficient by 
itself, however. We also need to offer to those who are 
residing here, working here, paying taxes and otherwise 
contributing--some of them have sons and daughters in the 
military, for example--the opportunity to earn their permanent 
legal status. We need to recognize that blood is thicker than 
borders. We need to deal squarely with the issue of family 
reunification and the backlogs in the family program so that 
families are not separated 20 years or more, sometimes, by our 
dysfunctional laws.
    I want to put in a small plug, in closing, for the DREAm 
Act. Just from my personal experience in the military, I know 
that we have thousands of young people living in America today 
who came to the United States when they were very small who 
would like to serve in the military, but they can't because 
they can't get legal papers.
    They speak English and are in great physical condition. 
They have graduated from our high schools, and yet they cannot 
serve in the military unless they somehow get in by using fake 
documents. We should pass a law like the DREAM Act to allow 
some of those people not only the opportunity to work at 
janitors at Wal-Mart and things like that, but also the 
opportunity to volunteer to serve this great country.
    In closing, I would say our Nation has no choice but to 
move ahead with comprehensive immigration reform. We need to 
think that immigration reform is national security reform, but 
we need to think about it in a new and creative way if we are 
going to enhance our security at the border, and we need to do 
this immediately. We can't wait.
    Thank you.
    [The prepared statement of Ms. Stock appears as a 
submission for the record.]
    Chairman Chambliss. Well, I thank both of you for those 
comments. I will have to say I agree with most everything that 
both of you said.
    Professor Stock, I really have been supportive of the 
President's approach to this because he is the first President 
we have had who has been willing to say, hey, look, we have got 
a problem and we had better face it now. You highlight a real 
reason why the leadership in this country needs to face this 
problem, and that is these kids coming along.
    They didn't ask for this. They came with their parents who 
may have come here illegally, and obviously did come here 
illegally. Yet, they are having to pay really a higher price 
than what their parents have had to pay. We need to think about 
the overall issue and those young people who are qualified to 
be educated, qualified to go into the armed forces, qualified 
to go into the workforce. Yet, they are going to have this 
handicap hanging over their head.
    I don't pretend to have all of the answers to the question, 
and I have talked with the President any number of times about 
this and he doesn't have all of the answers. But the fact of 
the matter is I applaud him for being willing to face this.
    I want to make sure that the next generation--and I have 
got children and grandchildren--don't have to look at this 30 
years from now. If we don't look at it today, then the problem 
is only going to get more complicated. I don't know that it can 
get any worse, but it is certainly going to get more 
complicated by the number of people. So both of you are right 
in your comments relative to these young folks coming along 
and, Mr. Griswold, particularly your comment about building a 
wall. That is simply not going to work.
    Ms. Stock, in your written testimony you address border 
security by describing the issue as terrorist versus legitimate 
entrants. But we hear about false documentation that is 
presented at the border, and under a guest worker program we 
will have hundreds of thousands of people presenting documents 
at the border.
    How would you propose that we address what is sure to be a 
growing problem of people attempting to enter the United States 
through our ports of entry in an illegal manner? In other 
words, how can we be confident in our border security against 
people illegally entering our country even if they are just 
seeking a job?
    Ms. Stock. Well, I think part of the guest worker proposal 
is the idea that we are going to have a drop in the number of 
people who are trying to come in, and I believe that is the 
case based on my experience dealing with immigrants.
    I know that the vast majority of people coming particularly 
from Mexico are coming here to work or to be part of a family, 
and they come in illegally because there isn't a way for them 
to come legally. If there were a way, these immigrants would 
love to be legal. I have had so many people over the years come 
into my office and say, is there any way that I can get legal? 
They are just dying to do it legally, but the current system is 
broken and they can't do it.
    There is a myth out there among many people that it is easy 
to emigrate to America. In fact, it is not. It is extremely 
difficult today. We call ourselves a nation of immigrants. It 
is not really true today; it hasn't been true for decades. It 
is extraordinarily difficult for the average person out there 
in the world to emigrate to America even if they have relatives 
who are here already and even if they have a job here that 
nobody wants.
    Much of the illegal immigration is driven by the fact that 
people can't get here legally. I expect if a guest worker 
program is designed properly and has an earned adjustment or 
regularization program with it that we will see a significant 
drop in the flow of people trying to come in illegally with 
false documents. There won't be any need for them to do that if 
they can come legally. Why would they run the risk of dying in 
the Arizona desert when they could simply walk through the San 
Ysidro port of entry with the correct documents?
    Mr. Griswold. Senator, could I just add to that quickly?
    Chairman Chambliss. Certainly.
    Mr. Griswold. I agree with everything Margaret says. 
Besides just the common-sense reasons why Mexicans, in 
particular, would prefer to come in legally, we do have some 
historical experience. We had the bracero program in the 1950's 
and into the 1960's, and that program had some flaws. It is not 
a good model point by point, but President Eisenhower 
dramatically increased the number of visas available during the 
1950's and the apprehensions of people coming in illegally at 
the border dropped dramatically by 95 percent. I think we have 
every reason to expect that to happen here.
    Wouldn't the job of Mr. Bonner and other people trying to 
protect our borders be easier if 95 percent of the people 
coming in illegally now were basically taken off the table and 
coming in through an orderly process through ports of entry? 
Then we would know, if somebody was sneaking in, they were 
probably up to no good.
    Chairman Chambliss. You make a good point.
    Mr. Griswold, you have written that if President Bush's 
guest worker plan is put into action, we would eliminate most 
of the smuggling operations overnight and drain the underground 
channels by which terrorists might try to enter the United 
States.
    Can you elaborate on that, and particularly in contrast to 
our border protection agents' ability to control illegal 
immigration, as recent figures of illegal immigrant arrests 
seem to demonstrate?
    Mr. Griswold. Yes, that is a good point. Well, part of the 
reason why I think that is true is just the point I made about 
the historical record of the bracero program. If people can 
come in illegally, they will choose to come in--if they can 
come in legally, they will not come in illegally. I think what 
you do is you reduce the demand for these documents and you 
will see the supply shrink. Now, there will always be illegal 
activity, people for one reason or another wanting to come in 
illegally, but it is more of a manageable problem.
    There is some historical analogy with Prohibition, as well. 
One of the unintended consequences of Prohibition was we 
created a lot of underground crime. Once Prohibition went away, 
a lot of that underground crime and organized crime went away 
as well, and I think we could expect that with this program. 
Let's get the vast majority, 99 percent or whatever, of people 
coming across the southwest border who are just coming here to 
work--let's get them off the table through a legal, orderly 
process. Then we can focus the full force of our law 
enforcement and border enforcement on that 1 percent or less 
whom we have reason to believe are up to no good.
    Chairman Chambliss. Ms. Stock, you alluded to this a little 
bit earlier and you have also written that passing new and more 
complicated laws will not cure our security problems, but our 
focus should be on simplifying and implementing existing laws.
    Does a massive guest worker program help or hurt this 
objective to achieve better border security?
    Ms. Stock. Well, I think it is very important to simplify 
our laws. Right now, it is impossible for the average person to 
understand our immigration laws. Even the average lawyer 
doesn't underhand our immigration laws, and I run into that 
everyday when I try to explain to somebody who comes into my 
office and says, I have a simple immigration question, and two 
hours later we are still talking about it.
    In fact, our laws are extraordinarily complicated. A guest 
worker can address that if, in conjunction with the program, we 
perhaps repeal some of the provisions of the immigration law 
that tie up or resources, but do nothing to enhance our 
security.
    For example, Section 212(a)(9) of the immigration law 
currently contains 3-year bars, 10-year bars, permanent bars 
that essentially divide families up. There are plenty of 
provisions in the law that keep out terrorists. We have had 
provisions in the law to keep out terrorists for years. The 
problem we have is the terrorists don't come up to the border 
and say, hi, I am a terrorist, can I come in.
    What we are doing with a lot of complicated provisions of 
the law, though, is we are keeping out people that are 
breadwinners in the family, that are married to Americans, that 
overstayed a visa for too long or has some problem with 
paperwork that may not even be their fault. And we are telling 
them that you need to leave the United States and in 10 years 
or 20 years you can come back to be here with your family. That 
makes no sense from a national security perspective.
    The average person--as I said, blood is thicker than 
borders--they are going to try to sneak back in to be with 
their family members, or we force the American to move to a 
foreign country to live with their family members. In a lot of 
cases I have seen, we force the American family to go on 
welfare because the Mexican worker, for example, who is being 
deported is the breadwinner in the family. He is married to an 
American woman and they have a bunch of children. Once he is 
deported, the family has no income. They then have to go on 
welfare.
    When they are faced with a 3-year bar, a 10-year bar, a 20-
year bar, he is not coming back, at least not legally, and the 
family ends up essentially relying on the taxpayers to support 
them. These kinds of situations are far too common today 
because of our immigration laws. Some of the laws, while well-
intentioned, don't address national security at all.
    I would like to mention just for the record that I did 
coauthor a report called ``The Lessons of 9/11: A Failure of 
Intelligence, Not Immigration Law,'' and I would like to submit 
this report for the record.
    Chairman Chambliss. Sure, we will be glad to add that.
    Let me give both of you a hypothetical as to how I envision 
long-term the principles of the President and the general 
understanding of the ideas that a number of us have thought 
about relative to the illegals who are here today and how we 
are going to deal with them.
    We are not going to give these folks a green card. I think 
the President has correctly stated that they have got to be 
identified as being here illegally today. They didn't comply 
with the law and we don't want to recognize them as being here 
legally.
    But by the same token, if they are here and they are 
gainfully employed, they are providing a better quality of life 
for them and their families, and they are not displacing 
American workers, then the idea is that we allow them to stay 
here as a temporary employee, with the understanding that they 
will have to renew that right of staying here every 3 years or 
whatever the period may be. Those people, I envision, are going 
to be what we refer to as blue card-holders. We are going to 
give them a document that is a non-counterfeitable document 
that allows them to stay here so long as they are gainfully 
employed.
    Now, if we do that and if we put some sanctions on 
employers to hire only people who have that blue card or who 
otherwise are here legally under a green card or a visa or 
whatever, and that we begin removing or deporting those people 
who are not here legally under one of those scenarios, do you 
think that an incentive will be there on those people who are 
here, gainfully employed, to come forward and make application 
for that blue card?
    Mr. Griswold. Senator, I do think there would be an 
incentive, and I think you have outlined the issue very 
clearly. One, they could have portability moving from one job 
to another. A broader range of jobs would open up. They could 
move across the border multiple times instead of paying a 
coyote, a smuggler, every time they come across and risking 
their lives; you know, all the reasons that were in the 
previous panel.
    I think it is important, as the President outlines, that we 
not duplicate the mistakes of the 1986 law. That was an 
amnesty. You have been here 4 years, here is your green card. 
We didn't do anything to fix the flow of people coming in 
illegally.
    So I think the way the President has outlined it would give 
an incentive for people to come forward, which has all sorts of 
positive national security implications if people come forward. 
It would not allow them to jump the queue and get an extra 
advantage in getting citizenship or permanent residency.
    So for all these reasons, I think the way the President has 
outlined it offers--of course, Congress will put its stamp on 
it and there needs to be compromise, but I think the way he has 
outlined it, all the ingredients are there to fix this problem 
in a way that serves our economic needs, maintains our free and 
open society and helps protect us from terrorism.
    Ms. Stock. Could I address that, too?
    Chairman Chambliss. Ms. Stock.
    Ms. Stock. I really like the President's proposal, and I 
agree with you that it was very courageous of him to come 
forward because obviously a lot of people have not felt 
positively about the proposal. I believe, though, that if you 
have a full understanding of U.S. immigration law, you should 
agree with the President that we need to do something about the 
situation, particularly the situation involving Mexican 
workers.
    I do think, though, that if we don't consider allowing a 
certain number of workers who come in as guest workers to have 
the possibility of adjusting status that we are going to have 
far fewer takers on the temporary program. There is a sense out 
there in the immigrant community that if it is just a guest 
worker program and you can't get a green card eventually 
through some other method or through the program that you may 
want to just stay in the shadows because you are simply going 
to be identifying yourself to the authorities for 3 years and 
then you are going to be deported.
    So in conjunction with the temporary guest worker program, 
I think it is important to have some avenue for regularizing 
some of those people. Not everybody is going to want to 
regularize. Many people from Mexico do come to the United 
States and they just want to work here for a short time, earn 
some money and go back. That has been a historic pattern. But 
there are some that are going to want to stay and that deserve 
to stay that should be allowed to stay.
    So I believe in conjunction with the guest worker program, 
we should have some kind of earned adjustment program. We 
should not, of course, make people immediate citizens. That is 
a crazy idea, but we should have some kind of program in 
conjunction with the guest worker program that allows some of 
those people to regularize their status.
    Chairman Chambliss. Do you have any numbers of any sort 
that might indicate how many folks in the Hispanic community 
would want a green card versus some other temporary status?
    Ms. Stock. No, I don't have numbers on that. I haven't done 
a poll.
    Mr. Griswold. I will say, Senator, we had an experience 
from the mid-1960's when the bracero program ended until 1986 
when we passed IRCA and imposed employer sanctions. It was a 
kind of ``don't ask, don't tell'' guest worker program. They 
could come in without much trouble. Employers could hire them 
without even asking for documents.
    We found during that experience, according to the research, 
that about 80 percent of them eventually went back to Mexico. 
The average stay was something like two-and-a-half years. So 
there is a very clear demand for a temporary entry into the 
United States. Many Mexican migrants come here to solve 
temporary problems, to raise some cash for investment back 
home, to deal with temporary financial problems, and then they 
want to go back to the country of their birth and their 
culture. So I think there is a reasonable expectation, based on 
history, that there would be a demand and compliance with a 
temporary worker program.
    Chairman Chambliss. Ms. Stock, your comment relative to 
educating the public on the broad immigration issue, I think, 
is very well taken. I also have said to my friends who are 
critical of me for supporting the President, you don't really 
understand what the President has said here. This is not an 
amnesty program. As Mr. Verdery alluded to once again today, 
this is a program where we are simply recognizing that people 
are here illegally, and facing that problem and trying to 
figure out what is the best way to deal with this issue.
    I am not sure where we are going to go from here, but you 
folks know a lot more about this than any of us do. You deal 
with it on a much more regular basis, and I would simply say to 
you that as we move through the process, don't wait on us to 
call you. We asked you here today to testify because we knew 
you had something to offer, and I hope that you will free to 
contact either me or my staff or Senator Kennedy or his staff 
as we move through this process.
    And it is going to be a long process. We are not going to 
get an answer to these issues in the short term. It is going to 
take us months, maybe even years to finally get our arms around 
this, but we can't do it in the right way without help from 
folks who know the issues on the ground. That is why we asked 
you here today, so I hope both of you will stay in touch with 
us as we go through this and give us your thoughts and your 
ideas, and give us your criticisms. If we are moving in the 
wrong direction, we need to hear from folks out there who are 
really on the street and are a little closer to the issue maybe 
than we are.
    So I thank you for being here today. It has been very 
insightful to hear your observations and your insight into this 
issue, and we look forward to continuing the dialogue with you.
    Mr. Griswold. Thank you, Senator.
    Ms. Stock. Thank you.
    Chairman Chambliss. At the request of Senator Feinstein, we 
have a statement of Senator Leahy, and also some documents that 
Senator Feinstein would like to add to the record. That will 
certainly be done, without objection.
    With that, this hearing will stand adjourned.
    [Whereupon, at 4:55 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.] 

    [GRAPHIC] [TIFF OMITTED] T4810.001
    
    [GRAPHIC] [TIFF OMITTED] T4810.002
    
    [GRAPHIC] [TIFF OMITTED] T4810.003
    
    [GRAPHIC] [TIFF OMITTED] T4810.004
    
    [GRAPHIC] [TIFF OMITTED] T4810.005
    
    [GRAPHIC] [TIFF OMITTED] T4810.006
    
    [GRAPHIC] [TIFF OMITTED] T4810.007
    
    [GRAPHIC] [TIFF OMITTED] T4810.008
    
    [GRAPHIC] [TIFF OMITTED] T4810.009
    
    [GRAPHIC] [TIFF OMITTED] T4810.010
    
    [GRAPHIC] [TIFF OMITTED] T4810.011
    
    [GRAPHIC] [TIFF OMITTED] T4810.013
    
    [GRAPHIC] [TIFF OMITTED] T4810.014
    
    [GRAPHIC] [TIFF OMITTED] T4810.015
    
    [GRAPHIC] [TIFF OMITTED] T4810.016
    
    [GRAPHIC] [TIFF OMITTED] T4810.017
    
    [GRAPHIC] [TIFF OMITTED] T4810.018
    
    [GRAPHIC] [TIFF OMITTED] T4810.019
    
    [GRAPHIC] [TIFF OMITTED] T4810.020
    
    [GRAPHIC] [TIFF OMITTED] T4810.021
    
    [GRAPHIC] [TIFF OMITTED] T4810.022
    
    [GRAPHIC] [TIFF OMITTED] T4810.023
    
    [GRAPHIC] [TIFF OMITTED] T4810.024
    
    [GRAPHIC] [TIFF OMITTED] T4810.025
    
    [GRAPHIC] [TIFF OMITTED] T4810.026
    
    [GRAPHIC] [TIFF OMITTED] T4810.027
    
    [GRAPHIC] [TIFF OMITTED] T4810.028
    
    [GRAPHIC] [TIFF OMITTED] T4810.029
    
    [GRAPHIC] [TIFF OMITTED] T4810.030
    
    [GRAPHIC] [TIFF OMITTED] T4810.031
    
    [GRAPHIC] [TIFF OMITTED] T4810.032
    
    [GRAPHIC] [TIFF OMITTED] T4810.033
    
    [GRAPHIC] [TIFF OMITTED] T4810.034
    
    [GRAPHIC] [TIFF OMITTED] T4810.035
    
    [GRAPHIC] [TIFF OMITTED] T4810.036
    
    [GRAPHIC] [TIFF OMITTED] T4810.037
    
    [GRAPHIC] [TIFF OMITTED] T4810.038
    
    [GRAPHIC] [TIFF OMITTED] T4810.039
    
    [GRAPHIC] [TIFF OMITTED] T4810.040
    
    [GRAPHIC] [TIFF OMITTED] T4810.041
    
    [GRAPHIC] [TIFF OMITTED] T4810.042
    
    [GRAPHIC] [TIFF OMITTED] T4810.043
    
    [GRAPHIC] [TIFF OMITTED] T4810.044
    
    [GRAPHIC] [TIFF OMITTED] T4810.045
    
    [GRAPHIC] [TIFF OMITTED] T4810.046
    
    [GRAPHIC] [TIFF OMITTED] T4810.047
    
    [GRAPHIC] [TIFF OMITTED] T4810.048
    
    [GRAPHIC] [TIFF OMITTED] T4810.049
    
    [GRAPHIC] [TIFF OMITTED] T4810.050
    
    [GRAPHIC] [TIFF OMITTED] T4810.051
    
    [GRAPHIC] [TIFF OMITTED] T4810.052
    
    [GRAPHIC] [TIFF OMITTED] T4810.053
    
    [GRAPHIC] [TIFF OMITTED] T4810.054
    
    [GRAPHIC] [TIFF OMITTED] T4810.055
    
    [GRAPHIC] [TIFF OMITTED] T4810.056
    
    [GRAPHIC] [TIFF OMITTED] T4810.057
    
    [GRAPHIC] [TIFF OMITTED] T4810.058
    
    [GRAPHIC] [TIFF OMITTED] T4810.059
    
    [GRAPHIC] [TIFF OMITTED] T4810.060
    
    [GRAPHIC] [TIFF OMITTED] T4810.061
    
    [GRAPHIC] [TIFF OMITTED] T4810.062
    
    [GRAPHIC] [TIFF OMITTED] T4810.063
    
    [GRAPHIC] [TIFF OMITTED] T4810.064
    
    [GRAPHIC] [TIFF OMITTED] T4810.065
    
    [GRAPHIC] [TIFF OMITTED] T4810.066
    
    [GRAPHIC] [TIFF OMITTED] T4810.067
    
    [GRAPHIC] [TIFF OMITTED] T4810.068
    
    [GRAPHIC] [TIFF OMITTED] T4810.069
    
    [GRAPHIC] [TIFF OMITTED] T4810.070
    
    [GRAPHIC] [TIFF OMITTED] T4810.071
    
    [GRAPHIC] [TIFF OMITTED] T4810.072
    
    [GRAPHIC] [TIFF OMITTED] T4810.073
    
    [GRAPHIC] [TIFF OMITTED] T4810.074
    
    [GRAPHIC] [TIFF OMITTED] T4810.075
    
    [GRAPHIC] [TIFF OMITTED] T4810.076
    
    [GRAPHIC] [TIFF OMITTED] T4810.077
    
    [GRAPHIC] [TIFF OMITTED] T4810.078
    
                                 <all>

</pre></body></html>
